Department of Health and Human 
                                  Servces
                 OFFICE OF

            INSPECTOR GENERA





                  STATE REGULATION

  OF            LONG      CARE INSURANCE TERM




                                                Richard P. Kusserow
                                                INSPECfOR GENERA

                                   cIa                MAY 1991
                      OFFCE OF INSPECfOR GENRA


 The miion of the Offce of Inspector General (OIG), as mandated by Public Law 95-452
as amended, is to protect the integrty of the Department of Health and Human Servces
(HS) programs as well as the health and welfare of beneficiaries served by those programs.
Th statutory mision is carred out through a nationwide network of audits, investigations
and inpections conducted by three OIG operating components: the Offce of Audit
Servce , the Offce of Investigations, and the Offce of Evaluation and Inspections. The
OIG also inorm the Secetary of HHS of program and management problems and
recmmends courses to correct them.

                         OFFCE OF AUDIT SERVICE
The OIG' s Offce of Audit Servce (OAS) provides all auditing servces for HHS, either by
conducting audits with its own audit resource or by overseeing audit work done by others.
Audits examie the performance of HHS programs and/or its grantees and contractors in
cag     out their respective responsibilties and are intended to provide independent
asessments of HHS program and operations in order to reduce waste, abuse , and
mimanagement and to promote economy and effciency throughout the Department.

                         OFFCE OF INTIGATIONS
. The OIG' s Offce of Investigations (01) conducts criminal , civi, and admitrative
  investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
  unjust enrchment by providers. The investigative effort of 01 lead to crmial convictions
  admtrative sanctions , or "cvi money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid
 program

              OFFCE OF EVALUATION AN INSPECIONS
The OIG's   Offce of Evaluation and Inpections   (OEl conducts short- term management and
program evaluations (called inspections) that foc on isues of concern to the Department
the Congres , and the public. The fidings and recommendations contained in these
inpection report generate rapid, accrate, and up- to-date information on the effciency,
vulnerabilty, and effectivenes of departmental programs. This report was prepared in San
Francisco under the direction of Regional Inpector General Kaye D. Kidwell and Deputy
Regional Inpector General Paul      Gottlober. Project staff included:
Tom Purv

Elen Kotler
Don Lob
Vicki Greene, Headquarters
- -




      Department of Health and Human Servces

              OFFICE OF

         INSPECTOR GENERA





            STATE REGULATION

      OF LONG-TERM CARE INSURANCE





                          Richard P. Kusserow
                          INSPECfOR GENERA
            "0


                 :t~0ia OEI­

                            09- 91-00700
                EXECUTIVE SUMMAR 

PUROSE
The purpose of this inspection was to obtain current information on consumer
problems and State regulation of private long- term care (LTC) insurance.

BACKGROUN

Ths inspection was requested by Congressman Ron Wyden , Chairman of the House
Small Business Subcommittee on Regulation, Business Opportunities , and Energy.

Long- term care insurance policies provide " coverage for not less than 12 consecutive
months.. .for one or more necessary... diagnostic , preventive , therapeutic , rehabilitative
maintenance or personal care servces , provided in a setting other than an acute care
unit of a hospita1." 1 Long- term care insurance has grown significantly only recently.
The number of LTC policies has increased from 125 000 in 1986 to more than
1.6 milion in 1990.

In 1986 , the National Association of Insurance Commissioners (NAIC) developed the
first "Long-Term Care Insurance Model Act in collaboration with the Department of
Health and Human Servces (HHS) and insurance industry representatives. The
following year, it issued its first model regulation. The model act and regulation
provide States with minimum standards to use in crafting LTC insurance laws and
regulations. The NArC modifies the model act and regulation frequently to improve
policyholder coverage and strengthen consumer protection. Both were revised most
recently in December 1990. A lag exists before States adopt model changes , and
new State standards usually do not apply to policies already in       effect.


While States have primary responsibility for regulating private insurance , the Federal
government has played a role in regulating Medicare supplemental insurance
commonly known as Medigap insurance. In 1980 , Congress enacted the Baucus
amendment to the Social Security Act. The amendment defies minimum standards
that policies must meet before they can be marketed as certified Medigap policies.
Congress enacted further Medigap controls in the Omnibus Budget Reconcilation
Act of 1990. Currently, no Federal laws govern LTC insurance.




   lAs
         defined in section 4A of the NAIC Long-Term Care Insurance Model Act.
METIODOLOGY

In order to answer Congressman Wyden s questions about State LTC insurance
regulation , we (1) analyzed all 50 States ' LTC insurance laws and regulations
(2) requested complaint and enforcement data from all State insurance
commissioners , and (3) conducted telephone intervews with State insurance
regulators and counselors in 8 States. We also conducted telephone intervews with
NArC offcials , two industry representatives , and representatives of five national and
three State consumer advocate organizations.

FIINGS
OnIv   17    States sustantiII   meet   both the mol act and mol    regtin standards.
We considered a State to " substantially meet" the model act and regulation if its
provisions conform with all applicable sections of the model act or regulation even
though the State language varies. We considered a State to " partially meet" the
standards if its provisions conform with only a portion of the model act or regulation.

Although all 50 States have LTC insurance laws , only 17 States substantially meet
both the model act and the model regulation minimum standards. Specifcally,

            25 States substantially meet and 20 States partially meet the model act
            minimum standards , and

            18 States substantially meet and 10 States partially meet the model regulation
            minimum standards.

State totals reflect State laws and regulations that had been adopted through March
1991. Of all 50 States , 8 States are considering stronger LTC insurance laws , and
14 are considering stronger regulations.

Long- term care     innce complaint data are incomplete and inoncluse.
Twenty-one States reported receiving a total of 840 complaints in 1990. The major
categories of complaints are: (1) claims handling delays , (2) premium and refund
disputes , and (3) agent misrepresentation. Seventeen States were unable to provide
complaint data because (1) they do not keep separate LTC insurance information , or
(2) the data were not readily accessible. Twelve States did not respond to our
request for complaint data.
States report litle enforcement action              a1!ainst   TC inance companie and agents.

Only 10 of the 30 States that responded to our request were able to provide data on
the number of administrative and enforcement actions they had taken against LTC
insurance companies and agents. Four States reported 26 actions in 1990 , and
6 States said they had taken no action. Penalties included monetary fines , license
suspensions and revocations , and cease and desist orders. Twenty States do not
maintain readily available enforcement 
 ata for LTC insurance.

Alost all of the insurance                 counselors ,
                                        consumer advocates , and industry
representatives believe that State enforcement and monitorig need to be
strengthened. Insurance regulators in four of the eight sample States volunteered
that resource constraints prevent them from adequately enforcing their LTC
insurance laws and regulations.

MAITS FOR CONGREIONAL CONSIDERATION
If Congress decides to impose minimum Federal standards for LTC insurance , it
should consider that:

           strong laws and regulations will have limited effectiveness if they are not
           adequately monitored and enforced



           minimum standards may improve consumer protection in some States

           opinion is divided on whether the NArC model act and regulation provide
           adequate consumer protection

           mandating more strigent consumer protection may increase premiums , and

           minimum standards should allow insurers flexibility to develop innovative
           products that could benefit consumers.
            . . . . . . . . . . . . . . . .. .                                                                    ..........
                                             . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. . . . . . . . . .
                               ..................................




                     TABLE OF CONTENTS


                                                                                                                                  PAGE


EXCU SUMY

INODUCTON .
FIINGS                                                                                             ................5
   Only 17 States substantially meet both the model act
   and model regulation standards

   Long- term care insurance complaint                              data are
   incomplete and inconclusive                                                                                                             . 5


   States report little enforcement action
   against LTC insurance companies and agents . . . . . . . . . . . . . . . . . . . . . . . . 6

MATTRS FOR CONGREIONAL CONSIDERATION . . . . . . . . . . . . . . . . . 7

APPENDICE

   Appendix A: Summary of State Long-Term                                   Care Insurance Provisions

   Appendix B:       Organizations Intervewed by the OIG

   Appendix C: NArC's Long- term Care Insurance Model Act

   Appendix D: NArC's Long- term Care Insurance Model Regulation
                             INTRODUCTION
OBJCT
We conducted this inspection at the request of Congressman Ron Wyden , Chairman
of the House Small Business Subcommittee on Regulation , Business Opportunities
and Energy. In January 1991 , he asked the Offce of Inspector General (OIG) to
obtain current inormation on consumer problems and State regulation of private
long-term care (LTC) insurance. Specifically, he asked the OIG to:

                           which States have adopted the National Association of
         assess the extent to
         Insurance Commissioners (NArC) Long- Term Care Insurance Model Act and
         Model Regulation or other significant laws or regulations;

         document the nature and range of consumer complaints about LTC insurance;

         determine how States monitor compliance with and enforce their LTC
         insurance laws and regulations; and

         obtain the views of selected regulatory offcials , insurance counselors
         consumer advocates , and industry representatives regarding (1) the major
         problems consumers are experiencing with LTC insurance , (2) tp.e adequacy of
         State regulation , and (3) the need for reform.

BACKGROUN
Long- term care insurance policies provide II coverage for not less than 12 consecutive
months.. .for one or more necessary... diagnostic , preventive , therapeutic , rehabiltative
maintenance or personal care servces , provided in a setting other than an acute care
unit of a hospital."l These policies vary in terms of (1) the servces they cover
(2) the amounts they pay per day, (3) the duration of coverage , and (4) coverage
conditions or other    restrictions.

The need for long- term care is growing. During the past decade , life expectancies
have increased and hospitals have discharged patients earlier to contain costs. While
an individual' s need for long- term care may be temporary, consumers purchase
insurance to guard against financial ruin.

Long- term care insurance has grown significantly only recently. According to a 1989
General Accounting Office (GAO) report , only a few companies offered policies



   lAs
         defined in section 4A of the NAIC Long- Term Care Insurance Model Act.
before 1986   when approximately 125 000 policies were in effect. 2 As of July 1990
more than    100 companies underwote more than 1.6 milion LTC insurance policies.



State Regtin and the NAIC Modl Act and Regtin

States have primary responsibilty for regulating the insurance industry. The NArC
provides a forum for State insurance officials to discuss common problems
standardize the annual reporting of financial information by insurance companies
and develop model legislative acts for adoption by the States.

In 1986 , NArC developed its first model act which provides States with minimum
standards to use in crafting LTC insurance laws and regulations. The model act
goals are to (1) protect policy applicants from unfair or deceptive sales or enrollment
practices , (2) faciltate public understanding and the comparison of policies , and
(3) encourage flexible and innovative policy coverage. In 1987 , NArC issued its first
LTC insurance model regulation , which provides requirements specifically for
implementing the model act.

State insurance regulators , industry representatives , consumer advocates , and offcials
from the Department" of Health and Human Servces (HHS) participated in drafting
the model act and regulation. The NArC modifies the model act and regulation
frequently to improve policyholder coverage and strengthen consumer protection.
Both were last revised in December 1990. A lag exists before States adopt model
act and regulation changes , and new State standards usually do not apply to policies
already in effect. Neither the NArC nor States know what percentage of policies
currently in effect , meet NArC standards.

Fedal Regtin
While States have primary responsibility for regulating the private insurance market
the Federal government has played a role in regulating Medicare supplemental
insurance , commonly known as Medigap insurance. In 1980 , Congress enacted the
Baucus Amendment of the Social Security Act establishing minimum standards that
policies must meet before they can be marketed as certified Medigap policies.
Congress enacted additional Medigap controls in the Omnibus Budget Reconcilation
Act of 1990. Currently, no Federal laws govern LTC insurance.


    2Lne:-Term Care Insurance: State Rel!latorv ReQuirementS Provide Inconsistent Consumer
ProteCtion. General Accounting Office, April 1989

    The Federal Role in Consumer Protection and Rel!lation of Long Term Care Insurance.
Departmental Work Group on Consumer Protection and Long Term Care Insurance , U. S.
Department of Health and Human Servce, January 1991, p. 1
Prevus Stuie of LTC     Insance   Regutin and Cons           Complaints

During the past 3 years , Congress and others have undertaken several studies
concerning long- term care:

      House Agg Subcmmttee on Health          and Long-Term    Cae Report on
      Priate LTC Inurance

      In May 1989 ,  the House Aging Subcommittee on Health and Long- Term
      Care , chaired by Congressman Claude Pepper, issued a report entitled
       Private Long-Term Care Insurance: Unfit for Sale?" The Subcommittee
      found that , in 1987 , 70 percent of the States had no LTC insurance laws or
      regulations and only 14 percent had any professional staff specifically assigned
      to LTC insurance issues.

      GAO Studies on State Regulatory Requirements for LTC Inurance

      An April 1989 GAO survey of all 50 States found that (1) about half the
      States had adopted LTC insurance legislation , (2) legislation varied in the
      extent to which it met the NAIC's standards , and (3) few States maintained
      statistics on LTC insurance complaints. The GAO currently is studying eight
      States to update its information.

      House Energy and Commerce Subcommttee on Oversight and Investigations
      Surey of LTC Complaits

      The House Energy and Commerce Subcommittee on Oversight and
      Investigations , chaired by Congressman John Dingell , surveyed States to
      identify LTC insurance complaints and State responses. In a 1990 hearing,
      Congressman Dingell expressed concern that (1) States did not identify
      complaints by tye of policy, and (2) State regulation continues to be
      inadequate. Other Subcommittee concerns        include duplicate coverage
      inappropriate movement of consumers from one policy to another , lack of
      clearly defined policy benefits , and lack of sanctions against agents and
      insurers who mislead consumers.

      America Asocation of Retied PeoplelProject Hope Study of State
      Reguation of LTC Inurance

      The American Association of Retired People has hired Project Hope to
      (1) survey all 50 States to evaluate conformity of State laws with NArC's
      model act and regulation and (2) assess the adequacy of State regulatory
      activity .
                                                                       ---




       House Joint Surey of State Insurance Regulatory Agencies

       The House Aging Subcommittee on Health and Long-Term Care , chaired by
       Congressman Edward R. Roybal , and the House Small Business Subcommittee
       on Regulation , Business Opportunities , and Energy, chaired by Congressman
       Ron Wyden , are conducting a direct survey of State insurance departments to
       obtain information about their regulation of LTC insurance policies. In March
       1991, Congressmen Wyden and Roybal jointly requested information on issues
       including budget levels , complaint data , agent regulation , and loss ratios.

METIODOLOGY

Congressman Wyden asked the OIG to answer a series of questions about each
State s LTC insurance laws and regulations. Although NArC's model act and
regulation were amended most recently in December 1990 , we based our analysis
priarily on the January 1990 model language because States have not yet had
suffcient time to adopt the December amendments. Congressman Wyden
questions cover most key issues pertaining to individual LTC insurance policies
included in the model act and regulation. We did not review provisions dealing with
group policies.

Since some applicable laws and regulations are found in other sections of State
insurance codes , we sent each State a copy of our analysis which was based on the
LTC laws and regulations on file with NArC. We asked the State to verify our
analysis and identify any 'other relevant provisions in the insurance codes. Three
States (Alaska , New Jersey, and Nevada) did not respond. Two States (North
Dakota and New Mexico) responded too late for their verification to be included in
this report. Where necessary, we conducted telephone intervews to clarify the
States ' responses.

We conducted detailed telephone intervews with eight State insurance regulators in
eight sample States. We selected the States based on (1) the extent to which they
have adopted strict LTC insurance laws and regulations and (2) the prevalence of
LTC insurance counseling programs. The States with strong laws and regulations are
Massachusetts , Minnesota , New York , and Wisconsin. The States with weak laws
and regulations are Kentucky, Maryland , Texas , and Utah. The States with
counseling programs are Maryland , Massachusetts , Texas , and Wisconsin.

We conducted additional telephone intervews with NArC officials , six state insurance
counselors , two industry representatives , and representatives of five national and
three State consumer advocate organizations. Whenever possible , we coordinated
with GAO and other agencies that are studying LTC insurance regulation. In
selecting our sample of eight States for detailed intervews , we did not duplicate   the
eight States in GAO' s   current survey.
                                         FINDINGS

On 17 States substantiaI meet QQhe mod                       act and..el regu ation           standards.


The model act contains some provisions , such as a prohibition against requiring prior
hospitalization that are not incorporated in the model regulation. On the other
hand , some important provisions , such as inflation protection and post- claims
underwting, are included only in the model regulation. Thus , some States may
comply with the act but not the regulation and vice versa.

Although all 50 States have LTC insurance laws, only 17 States substantially meet
both the model act and model regulation minimum standards.

                    STA1E COMPIlCE            wr MODEL ACf AN        REGUlTION
                      Requirement
                                                         Act
                                                 Number of States in Compliance
                                                                   Regulation

                      Substantially meet

                      Partially meet

                      Generally do not meet



These totals reflect laws and regulations that States had adopted through March
1991. Of all 50 States , 8 are considering stronger LTC insurance laws , and 14 are
considering stronger regulations. It is possible that more States would meet model
act and regulation standards if pending proposals are adopted. Appendix A details
the extent to which States have implemented specific provisions.

Long-term care insurance complait data are incomplete and inconclusive.

Only 21 States provided complaint data. They received a                  total of 840 complaints in
1990, a 78 percent increase         from 1988.

                            STA1E COMPIA DATA AR              INCOMPLE
                                                  1988    1989     199     TOTAL

                      States reporting                                       n/a

                      Number of complaints        471      756              2067




    4We considered a State to "substantially meet" the model act and regulation if itS provisions
conform with all applicable sections of the model act or regulation even though the State     language
varies. We considered a State to " partially meet" a standard if its proviions conform with   only a
portion of the model act and regulation.
                           COMPI. REORTE                TO   STATE   IN 199
                   Comon complaints                                     Number
                   Claim delays                                           104
                   Premium and refund disputes
                   Agent misrepresentation/misconduct
                   Marketing and sales practices
                   Claim denials
                   Poor policyholder servce
                   Unstisfactory settlements

                   Recisions
                   Refusals to insure

                   Other
                   Noncategoried complaints                               388

                   Total                                                  840

Seventeen States were unable to provide complaint data because they do not keep
separate LTC insurance information or could not readily access the data. Twelve
States did not respond to our request for complaint data.


The NArC is developing a pilot project to track complaints in the " senior market
(i. , both LTC and Medigap). It is requesting that all States use a standardized
complaint form to ensure systematic collection of comparable data and to allow for
automation.

Thee of the                 commission staff and three of the consumer advocates
              State insurance
attn'buted the small number of reported complaints to the fact that LTC insurance
policies have become more common only recently. They believe problems may not
surface in signcant numbers until current purchasers begin filing claims many years
from now. Two insurance commission staff attributed the small number of
complaints to their States ' strict LTC insurance laws and regulations.

States report little enforcement acton against LTC insurance companies and agents.

Of the 30 States that responded to our request for enforcement data , only 10 were
able to provide the number of administrative and enforcement actions they had
taken against LTC insurance companies and agents. Four States reported 26 actions
in 1990 , and 6 States said they had taken no action. Penalties included monetary
fines , license suspensions and revocations , and cease and desist orders. Twenty
States said they do not maintain readily available enforcement data for LTC
msurance.

Alost all of the insurance counselors , consumer advocates , and industry
representatives believe that State enforcement and monitoring need to be
strengthened. Insurance regulators in four of the eight sample States volunteered
that resource constraints prevent them from adequately enforcing their LTC
insurance laws and regulations.
 MATTERS FOR CONGRESSIONAL CONSIDERATION


If Congress decides to impose minimum Federal standards for LTC insurance , it
should consider the following:

       Strong laws and regulations will have limited effectiveness if they are not
       adequately monitored and enforced. Almost all the industry representatives
       consumer advocates , and insurance counselors believe that State monitoring
       and enforcement of LTC insurance needs to be strengthened. A tyical
       comment came from a Health Insurance Association of America offcial:
        What we need is not new laws , but enforcement of existing laws.

       Minimum standards may improve consumer protection in some States.

       Opinion is divided on whether NAIC's model act and regulation provide
       adequate consumer protection. Industry representatives believe that NAIC's
       model act and regulation generally are a good basis for LTC insurance
       regulation. Most of the insurance counselors , consumer advocates , and State
       regulators believe that the model act and regulation are a good starting point.
       Some consumer advocates believe the model act and regulation are too weak.

       Mandating more stringent consumer protection may increase premiums.
       All of the insurance counselors and consumer advocates as well as five of the
       eight State insurance regulators identified the high cost .of premiums as a
       major problem. Previous studies have estimated that only 10 to 40 percent of
       seniors can afford private LTC insurance.

       Industry representatives and State regulators also caution that overregulation
       could reduce the number of companies willng to offer LTC insurance.
       Insurance regulators in three States (Massachusetts ,      Minnesota , and New
       York) said that fewer companies are willing to sell LTC insurance in their
       States because of their strict requirements.

       Minimum standards should allow flexibilty and innovation. The LTC
       insurance market is stil evolving, and flexibility that allows insurers to develop
       inovative new products could benefit consumers.




     The Federal Role in Consumer Protection and Re ulation of Lone- Term Care Insurance. draft
discusion paper ,
                The Department Work Group on Consumer Protection and Long- Term Care
Insurance, U. S. Department of Health and Human Servce, January 1991, p. 1; and The
Unaffordabiltv of Nursine Home Insurance. Familes USA Foundation, January 199.
APPENIX A
   SUMY OF STATE LONG-TERM CAR INSURCE PROVISIONS
Ths section summarizes our analysis of Congressman Wyden s specific questions.
We will provide a detailed State-by-State analysis in a separate report.

Twenty-eight States require po cies to pe guarntee4 renew

Section 6A of the model regulation requires individual policies to be guaranteed
renewable. Ths      means that the insurer may not (1) unilaterally change any policy
provision , (2) decline to renew a policy, except for nonpayment of premiums , and
(3) revise premium rates, except on a class   basis.


Twenty-eight States substantially meet this model requirement. Although three
States require guaranteed renewability, their definition does not meet all model
regulation criteria. Three other States do not require guaranteed renewability, but
insurers must meet model regulation criteria if they use the term. We found no
provision in 12 States '
                     LTC insurance laws or regulations and were unable to
determine requirements for 4 States.

Section 6B of the model act contains a more limited renewability requirement which
prohibits insurers from cancellng or not renewig an individual's LTC insurance
policy based on age or health deterioration. All but four States   substantially meet
this requirement.

No State requires policies to be noncacellable.

Although neither the model act nor the model regulation requires policies to be
noncancellable , section 6A of the regulation establishes a standard definition that
policy must meet if the term " noncancellable " is used: (1) the policy may not be
cancelled , except for nonpayment of premiums , and (2) the insurer may not make
any unilateral changes in the policy provisions or premium rate.

Although no State requires policies to be noncancellable , 23 States require policies to
meet the model regulation s standard definition if the term " noncancellable " is used.
Five States use a standard defiition partially based on the model , and one has a
stricter definition. We found no provision in 17 States and were unable to determine
the requirements in 4 States.

Twenty-seen States have no post-claims underwtig provsions.

Post- claims underwting refers to the practice of medically underwting a policy
when a claim is fied rather than at the time of application. If the insurer discovers
any " incorrect or untrue answer " in the application , the insurer may yoid the policy
or deny the claim. The model regulation requires insurers to (1) ascertain the
applicant s health condition and (2) provide disclaimers informing the consumer of
the insurer s right to rescind the policy if further underwting uncovers an untrue or
incorrect statement. For applicants over the age of 80, additional medical
inormation is required prior to the issuance of a policy.

Only 12 States have adopted the model regulation liting               post- claims   underwting.
     State has a provision partially based on the model , 4 have other requirements
and 27 have no provision. We were unable to determine coverage for six States.

States conform with or exceed the NArC contestable period stadard.

The contestable period is the time during which an insurer may deny a claim or void
a policy because of a misstatement that the insured made in an application. 6 The
contestable period usually appears in the general section of a State s insurance code
and tyically applies to all lines of life and health insurance , including LTC
insurance. The NAIC's Uniform Individual Accident and Sickness Policy Provision
Model Law provides for a maxmum 3-year contestable period for individual
policies.7 Al the States for which information was available conform with or exceed
this standard , i. , have shorter contestable periods.
                               CONTABLE PEROD STANAR
                          Requirement                    Number of States

                          6-month contestable period
                           year contestable period

                           year indivdua1/-year group
                           year contestable period

                          Information unavailable





Seventeen States require ination        protecton as an optional provision.

Although the model regulation does not require that policies include infation
protection , it does require that insurers offer consumers optional protection.
offered , the inflation protection must be at least as favorable as one of the following
options: (1) compounded annual increases , (2) the right to periodically increase
benefit levels without requiring evidence of health status , or (3) a percentage of
actual charges. The December 1990 amendments to the model regulations added
the requirement that the increases be compounded annually at a rate not less than
5 percent , but did not specify an index on which to base the rate.


   6 These time limitations generally do not apply in the cae of   fraudulent misstatements.

   7 Th NAIC has not established a contestable period for group policies.
Although no States require that all policies include inflation protection , 17 States
require inflation protection as an optional provision. We found no provision in
28 States and were unable to determine if there was a provision in 5 States. Of the
17 States that require inflation protection as an option , 14 require compound rate
increases; the other 3 require simple rate increases. Five of the 17 States specif the
Consumer Price Index (CPI), the CPI for Urban Areas , or the Medical CPI as the
basis for calculating interest. The other 12 States do not specify an index.


Although 20 States defie      ski           interme4iate cae. o        fie cut04ial   care.

Many long- term care insurance policies contain definitions of terms such as skilled
intermediate , and custodial care. Insurers may condition eligibility and set benefit
levels based on these definitions. Section 5 of the model regulation defines home
health care , skilled nursing care , intermediate nursing care , personal care , and home
care " in relation to the level of skill required , the nature of the care , and the setting
in which care must be delivered. It also defines providers in relation to servces and
facilities required and the licensure or degree status of the provider. It does not
define custodial care.

We found that 20 States substantially adopted the model definitions. Four States
had their own specifc defiitions for skilled , intermediate , and custodial care. Eight
States defined the terms based on State facilty licensing laws or other definitions.
We found no provision in 14 States ' laws and regulations and were unable to
determne the definitions     in 4 States.


Most States prohibit prior institutionalition requirements for home care benefits.

State requirements regarding home care benefits vary greatly. Both NArC and the
States have evolved gradually-- from allowing insurers to require a 3- day prior
hospitalization to the current model regulation that prohibits requirng prior
                        any benefits , including home care.
institutionalization for 





With exceptions , Section 6D of the model act prohibits companies from conditioning
eligibilty for any benefits on (1) prior hospitalization or (2) the receipt of a higher
level of institutional care. Most States have adopted a provision that meets or
exceeds the model act prohibition.      The following   table summaries the State laws
and regulations.
                 PROIDmON AGAlSf REQUIG PRIOR CONFME
                      Requirement                               Number of States

                      Conforms with or exceeds the
                      model act prohibition

                     Prohibits prior hospitaliztion only



                     Allow prior hospitaliztion or
                     institutionaliztion if an identical


                     policy is offered that prohibits prior
                     hospitaliztion or institutionaliztion

                     No provion found


                     Unable to determine

Most States prohibit the sale of LTC insurance policies that             lit coverage to skied
nursing care only or offer more generous coverage for skied              than nons   kied care.
Section 6B(3) of the model act states that " no LTC insurance policy shall provide
coverage for skilled nursing care only or provide significantly more coverage for
skilled care in a facility than coverage for lower levels of care. " It does not define or
specify a measurement for " more coverage.

Several States require that coverage be measured by the number of   days of care.
We found that 44 States have prohibited policies that limit coverage to skilled
nursing care only. We found no provision in five States and were unable to
determine coverage in one State.

Thirt-eight States also have provisions         prohibiting policies that provide significantly
more coverage for skil1 d care in a facilty than coverage for lower levels of care.
One State allows significantly greater coverage. Another State has no provision but
would reject a policy if the benefits were unreasonable. Nine states have
provisions. We were unable to determine the provision in one State.

Whe all States have maxum preexistig                  condition exclusion   periods. 23 do not
meet current NArC standards.

Section 6C of the model act requires that individual policies use a definition of
 preexisting condition " no more restrictive than: " ... a condition for which medical
advice or treatment was recommended by, or received from , a provider of health
care servces , within six (6) months preceding the effective date of coverage on an
insured person. " The act further prohibits policies from excluding coverage for a
preexisting condition unless loss or confinement begins within 6 months following the
effective date of coverage of an insured person.
 Although all 50 States limit preexisting              condition exclusions   , 23 States do not
 conform with NArC' s model act. For example , previous versions of the model act

 defined preexisting conditions as the presence of symptoms which would cause an

 ordinarily prudent person to seek diagnosis, care , or treatment. Although this

 definition has been eliminated , nine States stil include it. Another 14 States have

 provisions which do not confonn with the model act because they contain prior
 coverage restrictions which depend on the policyholder s age or some other variation.

Most States require coerage for             Aleimer s disease and related dementia.
Model regulation sections 6B(2) and 16EI0 specifically require coverage for
Alzheimer s disease and related degenerative and dementing ilnesses. Most States
require coverage for these conditions.
                             AL'S               AN DEM COVEGE
                        Requirement                                     Number of States
                                                                     Alzheimer s Dementia

                        Specific coverage required

                        State indicates it requires

                        coverage based on other

                        laws/regulations


                        No specific coverage

                        requirement


                        Unable to determine

Although most States require insurers to cover Alzheimer s disease and related
dementia, insurers may use other allowed policy restrictions (e.g. , medical necessity,
preexisting conditions) to deny claims. An industry representative identified this as
an important loophole that should be closed.

Although 48 States require stadard-Ilies of coverage.
all model act and regulation requirements.
                                                                         onll substantiall meet
Section 6G of the model act requires that insurers furnish applicants a standard
outline of coverage before a sale is made. Section 16 of the model regulation
prescribes a standard format for the outline of coverage.
                      REQUI STANAR              OUT OF COVEGE PRIOR TO SAL
                        Requirement                                  Number of States
                        Substantially meet model act

                        and regulation


                        Partially meet model act and

                        regulation

                     Require standard outline , but do not
                     specify when it must be provded

                     Require standard outline , but allow
                     it to be delivered after sale (at time
                     policy is delivered)

                     No outline requirement found

Nineteen States require that lie inurace policies providing long-term cae benefits
conform to the model act and regulation.

The model act (section 4A) defies LTC insurance as including LTC coverage or
supplemental coverage that is provided as a benefit in a life insurance               policy. For a
State to substantially conform with the model act and regulation , its defiition of
LTC insurance must include life insurance policies that provide or supplement long-
term care insurance.
                REGUlTION OF LI INSURCE                     POUCI TIT      PROVIE
                                  LONG-     TE CA           BEN
                     Requirement                               Number of States

                     Provion substantially basd on model
                     No provion found ,     but State report
                     life insurance policies are covered
                     by LTC laws/regulations

                     Other provsion in laws not basd
                     on model


                     No provion found


                     Unable to determine


Onl 11 States spe            require poticy summaries for lje            insurance   poijcies t1;
provde LTC benefits.

Section 61 of the model act requires that , if a life insurance policy provides LTC
benefits , a policy summary must be provided to the applicant at the time the life
insurance policy is delivered. The policy summary is similar to the required outline
of coverage in intent , but it also includes a detailed explanation of how long-term
care benefits interact with the rest of the life insurance policy. Some States believe
that the policy summary requirement duplicates the requirement for an outline
coverage.

Only 11 States specifically require policy summaries. Seven more require delivery of
some sort of outline or summary with a life insurance policy. We did not find a
provision in 25 States and were unable to determne coverage in 7 states.
                                  , "   ...                      , "




Seven States mandate standard or mium LTC benefit packages.

Three States mandate standard benefit packages for all LTC insurance. Minnesota
establishes two long- term care insurance policy categories and sets minimum
standards and minimum coverage for each. New York mandates specifc coverage
and payment amounts , and Wisconsin mandates a detailed list of coverage
agreements and payment amounts. Four States have mandated minimum benefit
packages , and three States have mandated partial benefit packages for home care
servces. Thirt- four States have not mandated a standard benefit package. We
were unable to determine coverage in six States.



Industry and consumer representatives disagree on the value of mandating benefit
packages. According to industry representatives , such a mandate may drive some
insurers from the market. They argue that no one policy is best for everyone
because people s needs vary based on their financial and family resources , health
and other circumstances. On the other hand , national consumer advocates urge
greater standardization.



Th-one States p.ave mium loss ratio requirements tp.at meet mode
standards.

Section 6E of the model act authorizes the State insurance commissioner to establish
loss ratio (i.e. , benefits paid out divided by premiums earned) standards for long-
term care insurance policies. Section 14 of the model regulation requires the
expected loss ratio for individual policies to be at least 60 percent.

Approximately half of the individuals we intervewed volunteered an opinion that
States should not currently emphasize loss ratio regulation because LTC insurance is
too new to calculate loss ratios precisely. Because of the substantial lag time
between purchase and use , neither companies nor regulators can project anticipated
claims or premiums. An industry representative stated that with the declining
average age of individuals purchasing LTC insurance policies           actual loss ratio
experience will take a  minimum of 10 years to develop. " A State insurance
commission representative noted       we want the companies to be around to pay
benefits , and if we are too tough in loss ratio requirements in the early years by
making companies sell only to high- risk people at first ,   then the companies      may go
under.

Thirt-one States have loss ratio requirements set at least as high as the model
regulation s                       Seven States have established loss ratios at less
               suggested 60 percent.
than 60 percent. Four of these base their loss ratios on the different terms of
renewabilty; for example , 50 percent for optional renewabilty, 55 percent for
guaranteed renewabilty, and 60 percent for noncancellable policies. Eight States
have the authority to establish loss ratios but have not done so. We found no
provision in two States and were unable to determine requirements in two States.

Eleven States reported specic procdures for loss ratio enforcement.

Although the model act and regulation do not provide specifc procedures for
enforcing LTC insurance loss ratios , general provisions in most State insurance codes
cover enforcement. No States reported taking any actions concerning loss ratio
enforcement , although 11 have specific enforcement procedures. Oklahoma and
Wisconsin indicated that they annually review loss ratios. Most other States review
them only upon initial rate filing and when insurers seek rate increases. If the loss
ratio is not met , States usually require rate reductions. They also can impose
penalties.

Th States consider expected premiums and claims          wp.en evaluatig   loss ratios.

Calculation of LTC insurance loss ratios is a complex task. Since policies usually are
bought years before a claim is fied and since LTC insurance policies are so new
quantitative descriptions of expected premiums earned and benefits paid out may not
be accurate. At present ,   30 States use expected premiums and claims to measure
loss ratios. Four States consider both actual and expected claims and benefits , and
three consider only actual. We found no provisions in eight States and were unable
to determine coverage in five States.

Nine States mandate refunds to policyholders when loss ratios are not met.

The model act and regulation do not require that States mandate refunds to
policyholders if loss ratios are not met. However , nine States have adopted such a
requirement. The refund usually is granted in one of three forms-- premium
reduction , cash refund , or extra benefits. Thee of the nine States have specific
regulations calling for refunds. The remaining six States have laws but no
implementing regulations. We found no provisions in 33 States and were unable to
determine coverage in 8 States.

Sixeen States have strct prior rate approval     requirements.


Under a prior rate approval system , policy rates are reviewed and approved by the
State before a LTC insurance policy can be issued. Under a " file-and-use " system
an insurer submits the rate to the State and, if the rate is not specifcally
disapproved , proceeds to issue LTC insurance policies. Most States specify a period
(usually 30 to 60 days) within which the regulatory agency must act on a company
request.




                                          1\-­
The model act and regulation do not address the issue of prior rate approval for
LTC insurance. According to NArC, most States require rate approval in the
general insurance codes. We were able to identify only one State (Rhode Island)
that specifically requires rate approval as part of its LTC insurance provisions.
                  PRIOR RATE APPROV AL-ANUSE                   REQUI
                     Requirement                              Number of States

                     State has a strict prior rate
                     approvl requirement


                     Prior approval in practice , but
                     State technically allow file-and-use

                     State allows file-and-use

                     Dual option-- prior approval or file-
                     and-use depending upon whether insurer
                     has met specified criteria

                     State does not approve rates

                     Unable to determine



Whe al States    have fical solvency requirements. none has specic               provisions for
long-term cae inurace.

According to NArC , all States have fiscal solvency requirements that apply to all
lies of insurance. No States have fiscal solvency requirements that are specific
LTC insurance.

Regulation of solvency is complex and detailed , involving legal criteria , surveilance
and enforcement. The most important criteria are dollar requirements to fund initial
and on- going capital assets and surplus reserves to meet future claims. The NArC
issues standard instructions and examiers handbooks specifically designed for
surveilance of fiscal solvency. The NArC coordinates the auditing of some
companies using teams of examiners from the company s home State and other
States in which the company does business. State agencies take informal action               or
issue formal orders to remedy fiscal solvency problems.

Thee State insurance regulators and two consumer advocates                expressed concerns
about the future fiscal solvency of LTC insurance companies. They are concerned
because the market is new and policyholders may not start filng claims in large
numbers for many years. Insurance companies may not be pricing policies
appropriately. By the time they recognize insolvency, it may be too late to take
corrective action. The NArC is developing fiscal solvency accreditation guidelines.
Twenty- three States reported minimum specific dollar requirements for capital and
surplus funds.



                                 FICA SOLVECY        REQUI
                      Aggegate of Minimum Capital Asts
                      and Surplus ReQuirements                Number of States

                      $100 00 to $500

                      :: $500,   00 to $1   millon


                      :: $1 millon to $2 milion



                      :: $2 millon



                     No specific dollar amount

                      Unable to determine



States have broad authority to impose penalties againt     both agents and       insurers.

Al States have authority in the general section of their insurance codes to impose
penalties against agents and insurers who violate State insurance laws or regulations
including those that apply to LTC insurance. The penalties usually include fines
license suspensions , revocations or nonrenewals , and cease and desist orders. If
certain conditions are present, penalties also may include restitution , jail sentences
or referrals for felony prosecution.

According to NArC, all States have adopted at least a modifed version of the NArC
Unfair Trade Practices Model Act. This model act authories penalties against both
agents and insurers for a wide range of prohibited practices , including
misrepresentations. Monetary penalties are set at $1 000 for most violations and
$25 000 for either flagrant violations or violations of cease and desist orders.
Because each individual act or practice (each policy sale) constitutes a separate
violation , the total fines can escalate rapidly. The act caps aggregate penalties at
$100 000 for most violations and $250, 000 for flagrant violations or violations of cease
and desist orders.

The NAIC did not establish specific penalties for LTC insurance violations until
December 1990. Section 24 of the model regulation now prescribes penalties against
companies and agents for violations of any LTC insurance laws or regulations
including prohibited marketing practices. The regulation calls for fines of up to
three times the amount of the commissions paid for each policy involved in the
violation or up to $10 000, whichever is greater. These fines are in addition to any
other penalties authorized by State law. At least six States have penalty provisions in
their LTC insurance laws or regulations.
 Few States currently lit commssion qjferentia s          for the sa   e of new and renewa
 policies.

 Although NArC did not have any agent compensation standards for LTC insurance
 until December 1990, four States had adopted them by March 1991. The agent
 compensation standards currently are the only optional provision in the model act or
 regulation.

The drafting language that accompanies the December amendments cites two
competing considerations to explain why the provision is optional. On the one hand
it acknowledges that the senior market "has been identified as being susceptible to
abusive marketing practices. " On the other hand , it notes that " not all policy
replacements are improper " because "LTC insurance and LTC insurance regulations
are continually changing.



The NArC's optional provision restricts first year commission per policy to no more
than 200 percent of second year commission. It also requires that (1) the
commission received in subsequent years be equal to the amount received in the
second year and (2) the commission be provided for a " reasonable number of years
(the model language does not define what constitutes a reasonable number of years).

Industry representatives believe it is inappropriate to limit commission differentials
for the sale of new and renewal policies and oppose the NAIC optional provision.
They maintain that differential commissions should be permitted because long- term
care is a complex product and initial sales require significantly more agent time than
renewals.

No State specicay prohibits the sale of multiple or d.!licatie           !ong- term   care
insurance policies.

Although no State has a specific prohibition against the sale of multiple or
duplicative LTC insurance policies , all States have the authority to regulate their sale.
The regulatory authority is based on the NArC Model Unfair Trade Practices Act
that all States have adopted. Furthermore , section 20 of the December 1990 LTC
model regulation amendments requires that " in recommending the purchase or
replacement of any LTC insurance policy or certificate an agent shall make
reasonable efforts to determine the appropriateness of a recommended purchase or
replacement. "   Although this provision could be used to regulate sales of
inappropriate multiple or    duplicative policies , few States have adopted it since it is so
new. Nine States    specifically identified this act or other provision as a basis for
regulating the sale of multiple policies   , and 13 States identified provisions regarding
the sale of duplicative   policies.
APPENDIX B



                 ORGANTIONS INRVIWED BY TH OIG

Insurance Commissioners ' Offces:

    Kentucky

    Maryland

    Massachusetts

    Minnesota

    New York
    Texas

    Utah

    Wisconsin



Consumer Advocate Organizations:

    Consumer Health Advocates , Boston , Massachusetts

    Texas Citizen Action, Austin , Texas

    American Association of Retired Persons , Washington D.

    Consumers Union , Washington D.

    Families USA, Washigton D.

    Older Women s League , Washigton D.

    United Seniors Health Cooperative ,   Washington D.

    Center for Public Representation, Madison , Wisconsin



Counseling Programs:

    Seniors Health Insurance Counseling and   Advocacy Program , Baltimore
     Maryland
    Servng Health Information Needs      of Elders , Boston , Massachusetts
    Ombudsman Program , State Department of Aging, St. Paul , Minnesota
    Senior Federation , St. Paul , Minnesota
    Insurance Board , Senior Concerns and Issues Section , Austin , Texas
    Wisconsin Bureau on Agig, Madison, Wisconsin


Industry Representatives:

    Health Insurance Association of America , Washington D.

    LTC Incorporated , Kirkland , Washington

APPENDIX C                              Model Reation ServCl- Januar

                                 G- TER      CARE I       SURA..       CE MODEL ACT

   Table of Contents
   Secon l.        Puose
   Secon           Scope
   Secon 3.        Short Title
   Secon           Defitions
   Secon 5.        ExtraterrtOrial Jurdicton - Group Long-Term Car Inurce
   Secon           Disclosur and Performce Stadards for Long-Term Car Insurance
   Seon            Admistratie Procedurs
   Secon 8.        Severabilty
   Seon            Effece Date

   Section 1.          Puose
  The purose of this Act is to promote the public interest, to promote the avaiabilty of long- term
  car insurance policies, to protet applicants for long- term ca insurance , as defied , from unai
  or deceptie sales or enrollment practices , to estalih             stadar
                                                                    for long-term car insurance , to
  faciltate public understadig and comparon of long. term                     ca
                                                                          insurance policies , and to
  facitate flexibilty and innovation in the development oflong-term            ca
                                                                           inurance coverage.
  Comment: The purse clause evidences legilatie intent to prote th publi whe
  flexbilty and inovation with respec to long-term ca insurance coverage.
                                                                                     regng th nee to permt
  Comment: The Task Force regnizes the viabilty of a long-term car prouct fuded thugh a lie insurance vehicle.
  and th Ac is not intended to prohibit approval of th    prouct Seon 4 now      spey addr       th prouct
  However. state must exame their exitig statute to determe whethr amendments to othr coe seons such as
  th defition of lie inurance and accident and heath reserve stadar and
  approval of the prouct
                                                                           furreviions ar necsar to authorie



  Section 2.           Scope
  The reuiments of th Act            sha apply to policies deliere or issued for deliery in th             state on
  or afr the effectie date of th Act          Th Act is not in
                                                           nded to supersede th obligations of
  entities subjec to th Ac to comply with th substace of other applicale insurce laws insofar
  as they do not confct with th Act , except tht laws and reguations designed and intended to
  apply to Medcar supplement insurance policies shal not be applied to long- term ca insurance.
  Note: Se Secon 61.
  !=omment: Th secon makes clea tht entities subjec to the Act must contiue         to comply with   other applicale
  U1urance legilation not in confct with th Ac

   Section 3.          Short Title
  Th Act may be known and cite as the " Long-Term Car Insurance Ac('
   Section 4.          Defitions
   Unless the context reuis otherwse , the defitions               in th secon apply thoughout th Act.
      A. " Long-term       car insurce "    meas any insurance policy or rider adverted, makete,
           offere or designed to provide    coverage for not less      th,.lve (12) consecutie months for
           each covere person on an expense incur , indemnty, prepaid or other basis; for one or
           more necessar or medcally necessar diagnostic, preventie, therapeutic, rehabiltatie
           matenance or personal car         servces ,   provided in a settg other than an acute car           unt

  Copyrght :SAlC
                                                  ""




                                             Long Term Car Insurance Model Act

            of a hospital. Such term includes group and individual annuities and lie insurance policies
            or ride!'s which provide dictly or which supplement long-term car insurance. Such term
            also includes a policy or rider which provides for payment of benefitS based upon cogntie
            impaient or the loss of fuctional capacity" Long-term car insurance may be issued by
            insurers: fraternal benefit societies: nonprofit heath. hospital. and medcal servce corpo­
            rations: prepaid heath plans: heath matenace organations or any                     siar
                                                                                               organation
            to the extent they are otherv.,-ise authoried to issue life or health insurance. Long-term car
            insura.'1ce shan not
            basic
                                      include any insurance policy which is offere            priy
                        1edicare supplement coverage . basic hospita expense coverage, basic medcal­
                                                                                                           to provide

            surgical expense coverage, hospital confiement indemnity coverage , major medcal
            expense coverage. disability income or relate asset- protecton coverage, accident only
            coverage. specifed     diseae or speced accident coverage, or         lite benefit heth coverage.
        B. " Applicant " mea.'1s:
           .n) In the case of an individual         long-term car   insurance     policy, the person who seeks to
                    contract for benefits, and

        - - (:21 In the case of a group long-term car       insurance policy, the proposed      certcate holder.


           state.
        C. " Certcate " means. for the puroses of th Act, any certcate
           term care insurance policy, which policy has ben


        D. " Commissioner " means the Insurance Commissioner of
                                                                                       issued   under a group long-
                                                                         deliere or issued for deliery in this

                                                                              th state.
Drafting :Sote: \\nere the word " Commissioner appears in
supervisory offcial of the state shouid be substitute.
                                                              th Act, the appropriate designation for the cmefinsurance
    E. " Group long- term      care insurance " meas a long-term car insurance policy which is
           delivere or issued for delivery in this state and issued to:

           (1) One or more employers or labor organations , or to a              tnt
                                                                             or to the trstes of a fud
                    estalished by one or more employers or labor orgaations, or a combination thereof
                    for employees or former employees or a combination thereof or for members or former
                    members or a combination theref, of the labor organations; or

           (2) Any professional. trade or occupational association for its members or former or rerid
               members , or combination thereof, if such assocation:

                    (a) Is composed of indiduals al of whom ar or were actely                engaged in    the same
                        profession , trade or occupation; and

                    (') Has been   maitaed in good faith for puroses other than obtag insurance;

                         association or a trst or the trste(s) of a fud established, crete or
           (3) An 


                    for the benefit of members of one or more associations. Pror to advertsing,
                                                                                                        mataied
                                                                                                     maketig
                    or offerig such policy   withi this SLate , the association or associations. or the insurr
                    of the association or associations, shal
                                                           fie evidence ..ith the         Commissioner that the
                    association or associations have at the outset a
                    been organized and mataied in good faith for
                                                                           mium of 100 persons and have
                                                                      puroses
                    insurance. have been in active existence for at least      other than that of
                                                                          one yea;
                                                                                                          obtaig
                                                                                   and have a constitution
                    and bylaws which provide that:


640-2
~~~                                                                '!
                                         Model Reation      Sece- Januar
                   (a) The assocation or assocations hold reguar meetigs not less tha annualy to
                         fuerpuroses of the members;

                  (b) Except for     crt
                                       unons, the assocation or associations collec dues or solicit
                      contrbutions frm members; and
                  (c) The members have votig         prieges and        representation on the governg board
                         and committs.
                  Th      (30) days afr such fig th assocation or assoctions wi be deemed to
                  satisfy such organational reuiments , uness              th Commsioner maes a               fidig
                  that the association or assocations do not satify       those   orantiona reuiments.
           (4) A group other than as descrbed in
                  by the Commisioner that:
                                                        Subsecons E(l), E(2) and E(3), subjec to a           fidig
                  (a) The issuance of the group policy is not contrar to the bet interest of th          public;

                  (b) The issuance of the group policy would result in               ecnomies of acquiition or
                      administration; and

                  (c) The benefits   ar reonable in relation to th premium ched.
    . F. " Policy "meas, for the puroses of            th
                                                      Act, any policy, contract subscrber agrment
         rider or endorsement deliere or issued fur deliery in              th
                                                                         state by an inurr, fratern
         benefit socety; nonprofit heath , hospita , or medca servce corpration;
         plan: heath matenance organation or any                   siar orgation.
 Drafting l'ote: Th Ac is intended to apply to th speed grup and indidual
                                                                                       prepaid heth

 whther issued                                                            poli. contrC'. and certcate
                                             soties: nonprofit heth. hospita. and medca serv coations:
                   by insurrs: frternal benefit
 prepaid heth plans; heth   matenace    orgns           si oron. In or to include suc oranons.
                                                     or any
 upon state law, insurance deparent   jurcton             telogy or by spec sttUto citatin. Depedig
 each state should identi thm in accrdance with ita statUtory
                                                                separte leglation may be reui
 the leglation should provide that the
for. or added to
                                      parar   telogy    us       th plans" should
                                                  and othr factrs.

                  , th corrpondig terms us in t. Ac Th te " reatins
                                                              by            and Oltions
                                                                                                        In any event,
                                                                                                   may be substitUte
and reations " or " rues " as may be approrite under
                                                       st   law.
                                                                                  be replace by the      tes " rues
Th defition of " long-term ca
                                 th pur'
intensity and level. whe aaurg tht
met. Th Ac is intended to permt long-te        renale expetions for maum
                                  inurance " under th Ac
                                                   is desgned to alow                              sc.
                                                                                           flexbilty in benefit
                                                                      a long-term ca inurce policy
                                      ca
rehailtatIe. matenace or peona ca se . or  inurce                       diagntic, pretIe. thrapeutic.
                                                             polici to cover eithr
the ty of servces. Puruant to th deftin.       an combition thref. and not to madate coverage for each of
                                         long-term        ca inurce may
policy or a rider to such a policy, e. g.. lie or accdent and sickes.                                   inurce
                                                                                 be eithr a grup or indidual
                                                                        language in th defition concerng " othr than
an acute car unt of a hospita" is inteded to alow payment of
for. and duly linse     or certed as a long-term ca proder or benefita
                                                                   swig
                                                                                                 ha be desigte
                                                                          whn a porton of a hospita

Secton 5.                Extatrrtorial Jursdcton - Group Long-Term Car Insurance
No group long-term car insurance coverage may be offere
grup policy                                                to a resident of     state under a  th
                   issued in another state to a
                                          grup descrbe
another state havig statUtory and reguatory long-te
                                                    ca
                                                       in Secon   4E(  4), uness      state or        th
siar   to those adopte in         th                     inurance  reuiments    substatialy
                               state ha made a determtion that such reuiments have been
met.
             ote: By     liitig
                          extraterrtorial jurdicton to " ditiona
JurCton Over other heath policies                                        grups:' it is not the drafrs ' intention tht
                                  should be lite in th maer.




Copyrght   NAlC    199
                                                 Long Term Car lnuranc:e Model      ACt


  Section 6.              Disclosure and Performance Standards for Long- Term Care Insurance
        A. The Commissioner may adopt reguations that include      stadards for fu and fai diclosur
            settg forth the maner,                content

            insurance policies , terms of renewabilty, intial
                                                              and

                                                               and
                                                                     reui
                                                              disclosurs for the sale of long-term car
                                                                   subsequent conditions of eligibilty,
            non-duplication of coverage proviions, coverage of dependents , prexitig conditions
            termination of insurance. contiuation or converson , probationary periods, litations
            exceptions. reuctons.            elition period. reuimenrs fur replacement, rent                     condions
            and defiitions of terms.


 Comment: Thi                  tion permitS the adoption of regulations estalihig         diclosur stadar. renewabilty and
 eligibiJit\. terms and conaitlons. and other performc:e reuimentS for long.term c:ar insuranc:e. Reguations under
 subsecion should reolOnize the developing and unque natur of long.term
 grup and indi..idual long. term care insurace policies.
                                                                                    ca
                                                                                inurance and th           dicton
                                                                                                               between

        B. :\0 long.term car            insurance policy      may:
           ( 1 )   Be cancelled , nonrenewed or otherwe termate on th grounds of the age or the
                   deterioration of the mental or physical heath of the insur indidual or certcate
                   holder: or

           (2) Contain a provision estalishig a new waitig period in the event extig
                                                                                     coverage
               is convertd to or replaced by a new or other form with the same company, except
               with respect to an incrse in benefits voluntay selec by the insur incfdual
                   group policyholder; or

           (3) Provide coverage for skied nuring car only or provide signcantly
               for skiled car in a facity than coverage for lower levels of
                                                                                                          more    coverage
                                                                                              ca.
        C. Prexitig condition:

           (1) No long-term care insurance policy or certcate other than a policy                           or   certcate
                thereunder issued to a group as                     defied in Secon 4E(1)       shal use a defition of
                   prexisting condition "            which is more restctie
               condition meas a condition for which medcal advice or
                                                                                     than the     followig: Prxitig
                                                                     trtment was reommended
               by, or reeived from a provider of heath car servces,
                                                                    with six (6) months preedg
               the effectie date of coverage of an
                                                         person.    inur
           (2) No long. term car insurance policy or certcate other than a
                                                                                policy or certcate
               thereunder issued to a group as defied in Secon 4E(1) may exclude      coverage for a
               loss or confiement which is the result of a prexitig
                                                                      condition uness such loss or
               confiement begis with si (6) months
                                                        followig the effectie date of coverage of an
               insur person.
           (3) The Commissioner may extend the
                                               litation
               above as to specc age grup categories in periods set forth in Sections GCm and (2)
               extension        is   in the best interest of the public.
                                                                            spec
                                                              policy forms upon fidigs that the

          (4) The defiition of " prexitig                   condition "
               application form designed to elicit the complete
                                                                           does not prohibit an
                                                                                 insurr from using an
               the basis of the answers on that application
                                                                heath history of  an   applicant and
                                                             , from     underwtig    in accordance with
               that insurer          s establihed underwtig stadards.               Unless otherwse
                                                                                        provided in the
               policy or certcate , a prexistig condition
                                                          , regardless of whether it is disclosed on the
               application, need not be covere unti the waitig period descrbed
                                                                                                        in Section GC(2)

               expires.   No         long-term care insurance policy or certcate may
                                                                                     exclude or use war' ers or

64()4
                                              Model Reguation Servce- July 199

                  riders of any kind to exclude.     lit or reuce coverage or benefits for s ..caly named
                                                                                 beyond the waitig
                  or described   prexistig diseases         or physical conditions                                  period
                  described in Section 602).

      D. Prior hospitalization institutionalation:
         (1) :\0 long-term care insurance policy may be deliere or issued                    for deliery in thi state
                  if such policy:

                  (aJ Conditions eligibilty for any benefits on a prior hospitaation                reuiment;
                  (bl Conditions eligibilty for benefits. provided in an institutional ca                settg on the
                      reeipt of a higher      level of institutional car; or


                  Ie) Conditions eligibilty for any benefitS oth th waer of preum ponfement,
                      post.acute care or reuperatie benefits on a prior insttutionalation reuiment.

         (2) (al	 A long-term car insurance policy       contag post- confement, post-acute ca
                      recuperatie benefits shal    clealy label in a separate paragraph of the policy or
                      certcate entitled " Liitations or Conditions on Eligibilty for Benefits " such
                      liitations or conditions , includig any        reui
                                                                        number of days of confement.

                  (b) A long- term   care insurance policy or rider which conditions eligibilty of non- .
                      institutional benefits on the prior reeipt of institutional ca sha not                    reui a
                      prior institutional stay of more than      thi
                                                                 (30) days.
Drafting Note: The amendment to the secon is          priy     intended to reui immedate and clear diclosur whe
long-term car insurance policy or rider conditions eligibilty for non- institUtional benefits on prior reipt of intitUtional
ca.
         (3) No long-term           ca
                                    insurance policy or rider which provides benefits only followig
                  institutionalation sha condition such benefitS upon admsion to a facity for the
                  same or relate
                  frm the intitution.
                                     conditions with      a period of less th       th       (30) days   afr diche
                                                             eliate the t.ay
Drafting Note: The Dee 1988
long-term ca
                                    amendment to th secon                              prior hospitation
                                                                                                            ch.
                                                                                                             scrn for new
                inurce polici. Some stte may wih to consider a " dual-option " alternt:e to th tota prohiition
agat th prior hospitatin            sc  bas on th st s parcuar demogrphi gegrphi an maket
If so, the followig proviion is such an alternt:e: " No long.term ca inurce policy whch conditions th elbilty of
benefits on prior hospitaation may be delere or issued for deliery in th State unless the insurr or othr entity
offerig that policy alo offers a long-term ca inurce policy whch doe not condition eligibiltY oibenefits on such a
reuimen
Editors Note:   Seon SD(3) is language frm the orgi model act whch did not prohibit prior insttUtionaltion.
Th drrs       intended thatSeon SD(2) would be         elite
                                                         afr adoption of th amendments to th seon whch
prohibit prior institUtionalation. State should exame thir Seon cafuy durg th pros of adoption or
amendment of th Act

      E. The Commsioner may adopt reguations    estalihig            stadar for long- term
                                                                                loss ratio
          ca insurance policies provided that a spec  reference to long-term ca insurance
          policies is contaed        in the reguation.
      F. Right      to retu   . fr    look:

          Long.term       ca inurance applicants sha have th right to retu th policy or certcate
          with       th(30) days of its delery and to have th preum reded if, afr examtion
          of the policy or certcate , the applicat is not satified for any reon. Long-term
          inurance policies and certcate sha have a notice promiently prite on th fit page


Coyr       NAlC
                                                   Long. Term Car Insurance Mocel Ac:

             or attched thereto statig in                 substace tht       the applicat shal have the right to retu
             the policy orcertcate withi thirty (30) days of itS deliery and to have the premium
             refuded if, afr examation of the policy or certcate, other than a certcate issued
             pursuant to a policy issued to a group defied in Section 4Eil) of thi Act , the applicant is
             not satisfied for any reason.

        G.               outline of coverage shal              be   deliere to a prospectie applicant for long-term care
                                                                                                                           dit
             (1)    A.

                    insurance at the      rie of     solicitation though mea which
                                                      intial                                               promiently
                    the attntion of the repient to the document and itS purose.

                     (a) The Commsioner shal prescrbe a stadard formt. includig style, arangement
                         and overal appearance, and the content of an outle of coverage.

                     (bl In the case of agent            solicitations, an agent must delier         the   outle of coverage
                         prior to the presentation of an application or enrollent form.

                   ' (C) In the case of   diresponse solicitations, th outle of coverage must be presente
                         in conjuncrin with any application or enrollent form.

             (2) The outle of coverage shal include:

                    (a) A descrption of the          pricipal benefits       and coverage provided in the policy;

                    (b) A statement of the pricipal exclusions, reuctons , and litations                          contaed
                         the policy;



                    (c) A statement of the terms under which the policy or certcate , or both , may be
                         contiued in force          or   dicontiued, includig any           reservation in the policy of a
                         right to change premium. Contiuation or conversion proviions of group coverage
                         shal be speccalydescribed;
                    (d) A statement that the outle of                    coverage is a   summa only, not a contract of
                         inurce, and tht the policy or grup mater policy contas governg                             contractal
                         provisions;

                     (e) A descrption of the terms under which the policy or certcate                         may be    returned
                         and premium refuded; and

                     (f) A brief   descrption of the relationship of cost of care and benefits.

        H. A certcate issued . pursuant to a group long- term car insurance                            policy which policy is
             deliere or issued for deliery in                  th st9te shal include:
             (1) A descrption of the          pricipal benefitS          and coverage pro\.ided in the policy;

             (2) A statement of the pricipal exclusions ,                    reductions and limitations contained in the
                     policy; and

             (3) A statement that the group mater policy determes governg contractual                               provisions.

Comment: The above provisions are deemed appropriate due to the parcular                 nature   of long.term care insurance. and
are consistent with g1oup insurance laws. Specific stadards would be contaned in reguations Implementing this Act.

             At the      tie of policy deliery, a policy sum                     shal be   delivered for an indriduallie
             insurance policy which provides long-term car                      benefits ..ithi the policy or by        rider. In

640­

                                       Model Reguation Servce - July   199

       the case of    dit response solicitations.       th insurr shal delier       the policy summa upon
       the applicant s reuest. but regaress of reuest sha mae such deliery no later than at
       the tie of policy deliery. In addition to complyig with al applicable reuiments. the
       summa shal also include:
       (1) An explanation of how the long. term           car   benefit interacts with other components of
              the policy,   includig deductions from    death benefits;

       (2) An ilustration of the amount of benefits, th lengt                of benefit ,   and the guarante
           lietie benefitS if any, for each covere person;
        (3) .Ay exclusions, reuctions         and litations on    benefits oflong-term car;      and


        (4) If applicablp. to the policy tye. the   sum          shal alo     include:

              (a) A diclosur of the effects of exerciing other rights under the policy;

              (b) A disclosur of guarantees relate to long- term car              costs of insurance charges,
                  and

              (c) Curnt and       projecte   maum lietie benefits.
   J. Any tie a long-term       ca benefit , fuded though a lie         inurcs
                                                                           vehicle by th acceleration
        of the death benefit , is in benefit payment statu , a monthly report shal be provided to the
        policyholder. Such report shal       include:


        (1) Any long-term       car benefits paid out durg the month;
        (2) An explanation of any changes in the policy, e. g. death benefits or cash values , due to
            long-term car benefits being paid out; and

        (3) The amount oflong- term          ca benefits exitig or remag.
    K. Any policy or rider adverted,  makete or offered as long-term car or nursing home
        insurance sha comply with the provisions of this Act.

Section 7.          Admnistrate Procedures
ReguationS" adopte puruant to          th Act shal be in accordance with the provisions of (cite section
of state insurance code relatig to the adoption and promulgation of rules and reguations or cite
the state s   admintratie procedurs act, if applicable).
Section 8.          Severabilty
If any provision of ths Act or the application theref to any person or circumstace is for any
reson held to be invald, the remader of the Act and the application of such provision to other
persons or circumstaces shal not be afecte thereby.

Section 9.          Effective Date
Th Act shall be effece          (insert date).




                                                                                                         640- ";
  pyr ght NArC
                                                            Long.Tenn Car Insurance Model Act


Legistar' e H         tory (011 references are       to   the   Proceedintls of the NAICJ

1987 Proc. 111        19. 655.   6;7.080,   700 (adopted).

1987 Proc. 1115. 23. 632. 633. 727, i30. i34 (amended and reprinted).

1988 Proc. 19. 20. 21. 629. 630. 652. 66I. 665/amended and reprintedl.

1989 Proc. I     9.     2S. 703, i54- 755.       i89. 793 (a.mendedl.

1989 Proc. 1113. 23. 24. .J6B. 476-4";7. 479-484 (a.mended and reprintedl.

1990 Proc. 16. 27. 28. 477. 541. 5.J2. 556-561  (a.mended               a.
                                                             reprinted).





640­

APPENDIX D

                                               Model Reguation Servce- Januar 199

                        LONG- TERM CAR INSURA"iCE MODEL REGULATION

  Table of Contents
  Section l.          Purose

  Section 2.          Authority

  Section 3.          Applicabilty and Scope

  Section 4.          Defitions

  Section 5.          Policy Defitions

  Section 6.          Policy Practices and Proviions

                     Reui Diclosur Proviions

                     Policies
  Section 7.
  Section 8.
        Prohibition Agait Post Clais Underwtig
  Section 9.         Minum          Standards for Home Heath Car Benefits in Long-Term Car Insurance

  Section 10.        Reuiment to Offer Ination Protetion

  Section 11.        Reuiments for Replacement

  Section 12.        Discretionar Powers of         Commsioner

 Section 13.         Reserve Standards

 Section 14.         Loss Ratio

 Section 15.         Filg Requiment

 Section 16.         Stadard Fonnt Outle of Coverage

 Section 1.             Puose
 The purose of thi reguation is to implement (cite section of law which sets
 Term Car Insurance Model ActJ, to promote the public interest                 forth the NAlC Long-
                                                                , to promote the avaiabilty oflong­
 term car insurance coverage. to prote applicants for long-
                                                              term car insurance , as defied , from
 unai or deceptie sales or enrollent practices , to facitate public understadig and comparon
 of long- term ca inurce coverages , and to
                                            facitate flexibilty and inovation in the development
 oflong-term car insurance.

 Section 2.             Authority
 Th reguation is issued puruant to the authority veste in the Commissioner under (cite sections
 oflaw   enactg th
                            Long-Ter Car Inurce Model Ac and estalihig th Co mmis.si
                          NAlC
 authority to issue reguations                                                           oner

 Section 3.             Applicabilty and Scope
 Except as otherwe specifcaly provided ,      thi reguation applies to all long- term car insurance
 policies deliere or issued for deliery in ths state on
 fraternal benefit societies; nonprofit heath
                                                        or                  afr
                                                              the effectie date heref, by insurrs;
 heath plans; heath matenance organations      , hospita and medcal   servce corporatioQ.s; prepaid
                                                                and al     simar organations.
 Drafting Note: This
 concractS. subscriber a
                         reguation. like the  NAlC
    Long- Term Car Insurance Model Act. is intended to apply to
                                 mentS. riders and endorsementS whether issued
 nonprofit heath. hospita and medcal servce                                          by insurers: fraternal benent policies.

                                                    corporations: prepaid heath plans: health                     societies:
 all simar organations. In order to include such                                                  matenance organations and
                                                        organations. reguations should
    tut:ry terminol gy or by specc StatUtory citation.                               identi them in accordance with
 Junsdictlon. an9 otner factors. separate reguations mayDependig
                                                         be      upon state law and reguation. insurance deparent
                                                                reui.
                                                                   In any event.
 Parcular te!"ology used by these plans. organizations and arangementS    (e.    the reguation should provide that the
 member! may be substitute
                                 for. or added to, the corrspondig                       g.. concract. policy. certcate. subscriber
                                                                     terms used   in   th reguation.



   P:1
                                                                                                                             641­
                               " "                                                                                             " "
                                                  Long- Term Car Insurance Mociel Reguation

    Se(:tion 4.            Definitions
. For the       purose of this reguation,                 the terms " long-tenn             car insurance;' " group long-term car
    insurance;' " commissioner," " applicant:' " policy " and " cert.icare " shall                                 have the meanings set
.   forth in Section of the AlC   Long-Term Car Insurance Model Act.
    Drafting Note: '.""'ere ,he word "         Cornmissione " appears in this regulation. :he approp
    insurance supeI"-1sol';:   "ffic:;11 oi ,he state should be subsatuted. To the extent                          3:te desilmaao n ior the c iei
    definition of the above terms cont.ine; i. ,hat model act should be tncorporat.
                                                                                                     hat ,he moael act   IS not aaupted. the rull
                                                                                                    lntO ,hlS Sel:lon-


    Se(:tion 5.           Policy Definitions
    No long-term care insurance policy deliered or issued for deliery
                                                                                                       in thi state shal use the terms
    set fort below, unless the             term ar defied
                                                in the policy and the                                  defitions satify the followig
    requirments:
           A. " Acute condition " means that the indidual is medcaly unstale. Such   an indidual
               reuis frquent monitorig by medical professional , such as physicians and registere
               nures, in order to matai        heath statu.
                                                         his or her

           B. " Home health car                   medical and nonmedcal servces , provided to il
                                             servces
               disabled or infi persons "inmeans
                                           their residences. Such servces may include
              servces , assistance with               lig and respite car services. homemaker
                                                    actities of daiy

           C, " Medicare " shall be defied as " The Heath Insurance for the Aged Act
              Social Security Amendments of 1965 as Then Constitute or Later . , Title XVIII of the
              Par I of Public Law 89- , as Enacted by the Eighty- Ninth Congrss'\ended;' or " Title I,
                                                                                 of the Unite
              of America and popularly known as the Health Insurance                                        States
              constitute and any
                                                                                        for the Aged Act , as then
                                            later amendments or substitutes thereof,' or words of
                                                                                                  simar import.
           D. " Menta or nervous            diorder "       shal not be defied to
                                                                   include more than neurosis,                                        psycho­
              neurosis , psychopathy, psychosis, or menta or emotional diseae or disorder.
           E. " Skied nuring car;' " intermediate car;' " personal car;' "
              shal be defied in relation to the level of ski               home car;' and other servces
              settg in which car must be deliered.              reui   , the nat1l of the car and the

           F. Al providers of servces, includig but not lite
                                                               to " skied nuring facilty,   extended
              ca facilty,     intermedate car facity;' " convalescent nuring home;' "
              facity," and " home car agency " shal be defied in                        personal  car
              reui     to be avaiable and the licensur or
                                                                 relation to the servces and facilties
              the servces. The defition may requi degr statUs of those providig ot' supervsing
                                                                               that the provide: be appropriately licensed or
              certed.
D:afting        ote: State laws relacig to nuring
relerence to or i.corporation of the                         and    other faciities and agencies are nOt uniiorm. Accordigly, specc
                                           i.di-idual State law      may be requi      i. struCtur_'lg' each    deiiition.
Co:nment: This section is intende; ,0 spear;..
term C::t" tnsur:Jce policies. while ;11l0Wtng 
            reuid definitional elements of sever:ll terms commonly fOW1d in lon!r'
                                                       some c1exibility i. ,he      deiiitions   themselves.

Se(:tion 6.             Policy Practices and Provisions
              Renewability. The terms "
              in any inciduallong-termguaranted   renewable " and " noncancellable " shal not be used
                                         car insurance policy without
              accordance with the disclosur                           fuher e."'planatory language in
                                            reuiments of Section 7 of this reguation.


641.
                                               Model &!guation ServCt-: Januar 199



          (1) No such policy issued to an indidual shal conta renewal pr?vi ions less favora?le
              to the insur tha " guarante renewable:' However , the Comnussloner may authonze
              nonrnewal on a statewide basis, on terms and conditions deemed necessaI by the
              Commissioner, to best pro t the interests of the insurs, if the insurr demonstrat€s:

                  (a) That renewal         wi jeopardie           the insurr s        solvency; or
                  (b) That:
                     (i) The actual paid clais     and expenses have substatialy exceeed the
                                                                                                                        premium
                              and investment income associate with the policies; and

                     (ii) The policies wil contiue to experience substatial                          and   unexpecte losses over
                              their lifetie; and
                     (Ui)




                             and
                             The projecte loss experience of the policies canot
                             or mitigated though reonable rate adjustments or other


                     (iv) The insurer has made repeated and good faith attempts to
                                                                                                     be signcantly improved
                                                                                                            reonable methods;

                                                                                                                   stabilize loss

                             experience of the policies ,          includig the tiely         fig for rate adjustments.
         (2) The term " guaranteed renewable " may be used      only   when the insur has the right to
             contiue the long-term car insurance in force by the tiely payment       of premiums and
             when the insurr has no unateral right to mae
                                                                     any change in any provision of the
             policy or rider whie the insurance is in force , and cannot
                                                                           declie to renew, except that
             rates may be revied by the insurr on a class basis.

         (3) The term " noncancellable                  " may be used          only      when the insured has the right to
             contiue the long-term car                     insurance      in force by the tiely payment of premiums
             durg which period the insurr has no                          right to unilaterally make any change in any
             proviion of the inurance or in the premi ur rate.
    B. Litations and Exclusions. No policy may be
                                                                             deliere or issued for deliery in this state
        as long-    term car          insurance      if such policy liits
        trtment, medcal condition or accident                           , except as follows:
                                                                                      or excludes coverage by
                                                                                        tye of iless
        (1) Prxistig conditions or dieaes;
        (2) Mental or nervous diorders; however
                                                  , this shal not permit exclusion or liitation
            benefits on the basis of Alheimer s Disease'                                                                         of


        (3) Alcoholism and drg addiction;
        (4) Illness,        tratment or    medcal         condition arsing out of:
            (a) VIlar        or act of war (whether declard or undeclard);
            (b) Parcipation in a felony, riot or insurtion;
            (c) Service in the            aned      forces or   unts     auxar thereto;
            (d) Suicide (sane or insane), attmpte
                                                                         suicide or intentionaly self- inflcte      injury; or
                    Av;atidn (this exclusion applies only to non-
            (e)
                                                                                      farpayig passengers).
COPYrght NAlC 1990
                                                                                                                          641.
                                                               ,,"
"

                                                 Long-Term Car Insurance Model Reguation

            (5) Trtment      provided in a governent facilty (unless otherwse requid by law),
                 servces for which benefits ar avaiable under Medca    or other governental program
                 (except Medcaid), any state or federal workers ' compensation , employer s liabilty or
                 occupational          diseae       law, or any motor vehicle no-fault law, servces provided by a
                 member or the covere person s                   immedate famy and servces for which no charge is
                 nonny made in the absence or insurance.
           (6) Th Subsection B is not intended to prohibit exclusions                                and liitations by tye or
                 provider or terrtorial            litations.
 Drafting Note: Pargraph (6) is intended to permt (al exclusions and litations for payment for servces provided
outside the   Unite States and (bl legitite         varations in benefit levels to reflec   dierences in provider rates.

        C. Extension or Benefits.               Termation of long- term         car insurance shal be without               prejudice
           to any benefits payable ror institutionalation if such institutionalation began whie the
           long.term car insurance was in force and contiues without interrption afr termation.
           Such extension or benefits beyond the period the long- term car insurance was
           may be       liite
                           to the duration of the benefit period , if any, or to payment of the
                                                                                                in force
                                                                                                                           maum
           benefits and may be subjec to any policy waitig period , and al other applicale proviions
           or the policy.

        D. Contiuation or Conversion.
           (1) Group long-term car insurance issued in this state on or
                section shall provide covere indiduals with a basis for contiuation or
                                                                                                 afr the effectie date of this
                                                                                       conversion of
                coverage.

           (2) For the puroses of thi                section       a basis ror contiuation       or coverage    " meas a policy
                proviion which                  maitais coverage         under the existig gr oup            policy when such
                coverage would otherwse termate and which is subject only to the
                                                                                 contiued tiely
                payment or premium when due. Group policies which restrct proviion of
                                                                                      benefits and
                servces to , or conta incenties to use                  cert
                contiuation benefits which ar substatialy equialent to the benefits of may
                                                            providers andlor racities         provide
                                                                                         the exitig
                group policy. The Commsioner shal make a determation as to the substatial
                equialency of benefits , and in doing so , shal tae into consideration the dierences
                between maaged car and non-maaged car plans, includig, but not
                                                                                           lited to
                provider system arangements , servce avaiabilty,
                                                                    benefit levels and admtrative
                complexity

           (3) For the puroses or thi  section  a basis for conversion of coverage " meas
                provision that an indidual whose cove
                                                                                                                            a policy
                                                      rage under the group policy would                                    otherwe
                terminate or has been  termate for any reson, includig dicontiuance of the
                group policy in its entity or with respect to an insur class, and who has been
                contiuously insur under the group policy (and any group policy which it
                                                                                        replaced),
                for at least SLX months
                                         imedately prior to termation, shal be entitled to the
                issuance of a convert policy by the
                                                     insurr under whose group policy he or she is
                covered           thout evidence or LasurabUity.

           (4) Forthe puroses of ths section. " convert policy
                term car insurance providig benefits identical to or benefits
                                                                                     " meas an ind.dual policy or long-
                Commsioner to be substatialy                                                                determined by the
                                                                  equialent
                                                        to or in excess or those provided under the
                group policy from which conversion is made. Where the group policy from which
                conversion is made  restrcts provision of benefits and servces to
                                                                                  , or contas incenties
                to use          cert
                              providers and! or facities , the COmmsioner
                                                                            . in         a determationmag
                as to the substatial equIalency or benefits, sha tae
                                                                                            Lato consideration the    dierences
641-4
                                       Model Reguation Servce    Januar 199

              betw n maaged car and non-maaged car plans. includig, but not lite to
              provider system arangements, servce avaiabilty, benefit levels and admstratie
              complexity.

           (5) Written application for the convert policy shal be made and the fist premium due. if
               any, shall be paid as dited by the insurr not later than thir-one (31) days
               termination of coverage under the group policy. The convened policy shall be issued
                                                                                                     afr
               effective on the day folloy."ing the termation of coverage under the group policy,
                                                                                                  and
              shal be renewable annualy.


          (6) Unless the group policy from which conversion is made replaced previous group
              coverage, the premium for the convert policy shal be calculate on the basis of the
              insurd' s age at inception of coverage under the group policy from which .conversion is
              made. \Vhere the group policy from which conversion is made replaced previous group
              coverage, the premium for the convert policy shal be calculate on the
                                                                                       basis of the
              insured' s age at inception of coverage under the group policy replaced.

          (7) Continuation of coverage or issuance of a         convert policy shal be madatory, except
              where:

              (a) Termination of group coverage       resulte from an indidual' s faiur to make any
                  requid payment ofpre miwn         or contrbution when due; or
              (b) The terminating coverage is replaced not later than thi-one
                                                                                       days afr
                  termination , by gTOUP coverage effectie on the day followig the(31)
                                                                                   termation of
                  coverage:

                 (i) Providig benefits identical to or benefits determed by the Commisioner to
                       be substatialy equialent to or in excess of those provided by the
                       coverage; and
                                                                                         termatig
                 (ii) The premium for which is calculated in a maner consistent with the requie­
                       ments of Paragraph (6) of ths    section.

          (8) Not\l"ithstadig any other provision of thi section
                                                                 , a convertd         policy issued to an
              indidual who at the tie of conversion is covere
                                                              by another long-       term car insurance
             policy which provides benefits on the basis of
                                                                incur expenses , may conta" a
             provision which results in a reuction of benefits payable if the benefits provided under
             the additional coverage, together with the
             policy, would result in payment of more than
                                                                 fu
                                                                benefits provided by the convertd
                                                            100 percent of incux expenses. Such
             provisionsha only be included in the convertd policy if the convert policy              also
             provides for a premium decrease or refud which
             payable.                                                   reflects the reuction in benefits

          (9) The convertd policy may provide
                                               that the benefits payable under the convert policy,
             together with the benefits payable under the group policy from which
             made, shall not exceed those that would have been payable had theconversion
                                                                                      individ
                                                                                                 is
                                                                                              ual'
             coverage under the group policy remaed in
                                                          force and effect.
          (10) Notwithstandig    any other    provision of thi section
             eligibilty for group long-term car                          , any insurd indi"idual whose
                                                          is based upon his or her relationship to
                                                     coverage
             another person , shal be entitled to contiuation of
                                                                 coverage under the group policy
             upon termination of the     qua.g relationship by death or disolution of maage.


opyrght   NAlC 1990
                                                                                                    641­
                                                                                                             " "




                                               Long- Term Car Insurce Model Reguation

                   (11) For the purposes of      thi section: a " Managed- Car                     Plan "          is a heath car or assiste
                          living arrangement designed              to coordiate patient care or control costs                        through
                          utiation re\-1.ew, case   maagement or use of specifc provider networks.
  Section 7.                     Requied Disclosure Provisions
          A. Renewabilty. Individual long- term           car insurance policies shall contai a renewabilty
                   provision. Such provision shall be appropriately captioned , shall appear on the
                                                                                                    fist page
                   of the policy. and shal clealy state the duration, where lited , of renewabilty    and the
                   duration of the term of coverage for which the policy is issued and for which it
                   renewed. Ths provision shal not apply to policies which do not conta a             may be
                   provision , and under which the right to nonrenew is reserved solely to the   renewabilty
                                                                                                                             policyholder.
" Drafting :-ote: The last sentence of this subsection is intended to apply to long-term
  combined with life insurance policies. since lie insurance policies                                              car policies which ar par of
                                                                                  generaly do not conta renewabilty proviions.

         B. Riders and Endorsements. Except for riders or endorsements by whch th inurr                                                  effecate
            a request made in wrtig by the insux under an indiduallong.term car
               policy, all riders or       endorsements added to an indidual                                                             insurance
                                                                                                     long- term car insurance
               afr date of issue or at reinstatement or renewal which reuce or eliate benefits
                                                                                           policy
                                                                                               or
               coverage in the policy shal reui signed acceptace by the
                                                                        indidual IDsux. Afr the
               date of policy issue , any rider or endorsement which
                                                                  increses benefits or coverage with a
               concomitant increase in premium durg the policy term must       be
               signed by the insured , except if the incresed benefits or coverage        to in wrtig                    agr
                                                                                   ar  requi   by law
               Where a separate additional premium is charged for benefits provided in connection with
               riders or endorsements, such premium charge shal be
               endorsement.
                                                                                                      set forth in the policy, rider or

        C. Payment of Benefits. A long- term car                        insurance       policy which provides for the payment of
              benefits based on          stadar     descrbe as            usual     and cutomary,       reonale and custoID
              or words of simar import shal include a
                                                      defition                               of such terms and an explanation of
              such terms in its accompanyig outle of coverage.

        D. Litations. If a        long- term car insurance policy or
              with repe to Prexitig conditions. such                 certcate contas any litations
                                                         litations
              of the policy or certcate and sha be labeled as "
                                                                    sha  appe as a separate paragraph
                                                                Prxistig Condition Litations:'
        E. Other            Litations or Conditions on Eligibilty for Benefits. A long- term  car insurance
              policy or certcate          contaig any litations or conditions for eligibilty other
              prohibite in (insert citation to state law corrspondig to                            than those
              Car Insurance Model Act) shal set forth a description ofSection 6D(2) of the LDng-Term
              includig           any   requi number of days of confieme                                such litations or conditions

                                                                                                  , in a separate paragraph of the
              policy or certcate and shal label such paragraph "
              for Benefits:'                                     Litations                                    or Conditions      on Eligibilty


 Section 8.                     Prohibition Against Post- Claims Underwiting
        A. All applications for long-term car                    insurance        policies or certcates except those which are
              guaranteed issue shal COntai clea                   and
              health condition of the applicant.                         unambiguous questions designed to
                                                                                                                                ascert        the

        B. (1 If
                                application for long-term car
                         the applicant has had medication prescrbedcontais       a question which asks whether
                           an
                                                                        insurance
                                                                         by a physician
                         applicant to list the medcation that has been                   , it must also ask the
                                                                       prescribed.


641-6
                                                     Model Reguation Servce- Januar 199

               (2) If the medcations liste in such application were known by the ins  , or should have
                   been known at the tie of application. to be ditly relate to a medcal condition for
                   which coverage would otherwse be denied , then the policy or certcate shal not
                   rescinded for that condition.

           c. Except for policies or certcates which ar guarante                              issue:
               (1) The following language shal be set out conspicuously and in close conjunction with
                   the applicant's signatur block on an application for a long- term car insurance
                   or certcate:
                                                                                                   policy

                   Caution: If your anwers on                         th appliC3on ar incorr or untre, (company)
                   has the right to deny benefits or rescind your policy.
               (2) The follo..ing language, or language substatialy simar to the followig, shal be set
                   out conspicuously on the long-term car insurance policy or certcate at
                   deliery:                                                                the tie of

                   Caution: The issuance of this long- term care insurance (policy) (certificate)
                   is based upon your responses to the questions on your application. A
                   your (application) (enrollment form) (is enclosed) (was retaied by youcopy of

                  you applied). If your answers are incorrect or untre, the company has thewhen
                  right to deny benefits or rescind your policy. The best time to clear up any
                  questions is now, before a claim arses! If, for any reason, any of your
                  answers are incorrect, contact the company at this address: (insert
                                                                                      address)
              (3) Pror to issuance of   a long- term car policy or certcate                       to an   applicant age eighty   (80)
                  or older, the insurer shal               obta
                                                     one of the followig:
                  (a) A report of a physical examination;

                  (b) An assessment of fuctional                       capacity;
                  (c) An attndig              physician s statement; or

                  (d) Copies of medcal reords.
           D. A copy   of the completed application or enrollment form (whichever is applicable)
              deliered to the insur no later than at the tie of                               shal be

              uness it was retaed by the applicant at the
                                                                   deliery  of the policy or certcate
                                                          tie of application.


              matai a record of al policy orsellg
           E. Every insurr orother entity
                                             certcate rescissions, both state and countrde shal
                                                  or issuig lon?-term care insurance benefits
                                                                                                                      , except
              those which the insur voluntay effectuate
              to the Insurance Commissioner in the
                                                                                   and shal   annualy     fuh ths inormtion
              Insurance Commissioners. formt prescribed by the National Association of
Section 9.                 Minimum Standards for Home Health Care Benefits 


                           Insurance Policies                                                               in   Long- Term Care
           A. A long-term care insurance policy or
              health car services,           lit or exclude benefits:
                                                              certcate may not . if it provides benefits for home


              (1) By requig that the insurd/clait would nee
                  facilty if home heath car servces were not provided; skied car in                               a skied nursing



Copyrght       NAlC 1990
                                                                                                                             6-H­
                                                Lollg-Term Car Insurance Model Reguation

           (2) By      reuig           that the       insu.clait fit or simultaeously reeive nursing an                   /or
                 therapeutic servces in a home or community settg before home health car                            ser.i1ces
                 ar covere;


           (3) By liiting eligible semces to servces provided by registered nurses or licensed
                 practical nurses;

           (4) By requig that a nurse or therapist provide servces covered by the policy that can
               be provided by a home heath aide. or other licensed or certed home car worker
               actig withi the scope of hi or her licensur or certcation.
           (5) By     reuig
                car servces ar covere;
                                       that the       insurclait have an acute condition before home heath
           (6) By     litig benefits to servces provided by Medcarerted agencies or providers.
       B. Home heath car coverage may be applied to the nonhome heath car
                                                                          benefits provided in                                  .
          the policy or certcate when                       determg
                                                   maximum coverage under the terms of the
          policy or certcate.
Drafting Note: Subsection B permits the home health car benefits
                                                                         to be counte toward the
term care coverage under the policy. The subsection is not intended to restrct                          maum length of long-
would make the benefit ilusory. It is suggeste that fewer than 40 visits amount to home heath car to a period of tie which
                                                                                      an ilusory home heath car benefit.
Section 10.              Requirement to Offer Inflation Protection
       A. No insurr may offer a long- term car insurance policy uness                         the insurr    alo offers to the
          policyholder the option to purchase a policy that provides for benefit levels to
          benefit maums or reasonable durations which ar
          anticipate         incres                                                  meagf to account forincrse
                               in the costs of long. term car servces covere by the policy.
                                                                                                                with

                                                                                                           reonably
          must offer to each policyholder, at the tie of purchase, the option to purchase Insurrs
                                                                                            a policy
          with an ination protetion featU no less favorable than one of the
                                                                             followig:
          (1) Increses benefit levels annualy, (in a maner so that the increses
                                                                                ar compounded
                annualy);
          (2) Guarantes the insur indidual the right to periodicaly
                                                                            incrse
              without providig evidence of insurabilty or heath status so long                                benefit levels
                                                                                                        as the option for the
                previous period has not been declied; or


          (3) Covers a specifed percentage of actual or reonable
                                                                                          charges.
       B. Where     the policy is issued to a group, the requi offer in Subsection A above shal be
          made to the group policyholder, except, 

                                                       the policy is issued to a group defied in (Section
                                                                     ii
          4E(4)    of the Act) other than to a
                                               contiuig care retiment communty, the offerig shal
          be made to each proposed certcateholder.

       C- The   offer in Subsecrion A above shal                   not be   requi of:
          (1) Lie insurance policies                              containg accelerate
                                                      or riders                            long-tenn   car benefits. nor
          (2) Expense incurd long-term car                        insurance   policies.




641­
    , .




                                                Mode! Reguation Servce- January     199
      D. Insurers shall include the foUowig informtion in or with the outlie of coverage:
           (1) A graphic comparson of the       benefit levels of a policy that increses benefits over the
                 policy period \\'1th a policy that does not increse benefits. The graphic comparson
                 shal show benefit levels over at leat a twenty (20) yea period.

           (2) Any expected               premiwn increses or        additional premiwns to pay for automatic or
                 optional benefit increses. If premium increses or additional premiums
                 on the     atted                                                        -.1 be based
                                age of the applicant at the tie of the increse , the insurr shal also
                 disclose the magntude of the potential premium the applicant would n
                 ages 75 and 85 for benefit incrses.                                                            to pay at

           An insurer may use a reasonable                    hypothetical , or a graphic demonstration
           puroses of th diclosur.
                                                                                                        , for the


Drafting Note: It is intended that meaingf inflation protetion be provided. It is suggeste
                                                                                               that a minmum of fie
benefit miimums or durations could include providig increes to determg futu costs and premiums. Meagf
percent (5%) (compounded) annual cost incrse be used as a base for
or for some multiple of the policy                             atted age, or for a period such
                                          maum benefit. or throughout the period of coverage.         as   at leat 20 yea

Section 11.              Requirements for Replacement

          Question Concerning Replacement. Indidual and                         dit
                                                                 response solicite long- term car
          insurance application forms shall include a question designed to elicit informtion
          whether the proposed insurance policy is intended to replace                       as to
                                                                         any other accident and
          sickness or long-term             car insurance   policy presently in force. A supplementa application
          or other form to be signed by the 

                                                         pplicant   contag such a question may be used.
     B. Solicitations Other than Dirt Response. Upon determing that a sale 'N
          replacement , an insurer; other than an insurr using dict response                      involve
          or its agent; shal
          term car insurance
                                      fuh                                          solicitarion methods,
                                     the applicant, prior to issuance or delivery or the individual long-
                              policy, a notice regardig replacement of accident and sickness or
          long-term carcoverage. One copy of such notice
                                                         shal be retaied by the applicant and an
          additional copy signed by the applicant shal
          notice shal be provided in the foUowig maner:
                                                                              be retaied by the insurr. The     reui
                       NOTICE TO APPLICANT REGARDING REPLACEMENT
            OF INDIVIDUAL ACCIDENT AND SICKNESS OR LONG­
                                                         TERM CARE INSURANCE

According to (your application ! (information you have furnished), you intend to lapse or otherwise terminate
existing accident and sickness or long
                                                  term care insurance and replace it with an individual long-
insurance policy to be issued by (company nameJ Insurance Company. Your new policy providesterm     thirtcare
days within which you may decide.                                                                         (30)
                                      without cost. whether you desire to keep the
                                                                                       policy. For your  own
information and protection , you should be aware of and seriously consider certain factors which may affect
the insurance protection available to you under the new
                                                                    policy.
          Health conditions which you may presently have (preexisting conditions). may not be immediately
          or fully covered under the new pOlicy. This could
                                                            result in deniaior delay in payment of benefits
          under the new policy. whereas a similar claim might have been payable under your present
                                                                                                                  policy.
    2. You may         wish to secure the advice of your present insurer or its agent regarding the proposed
          replacement of your present
                                      policy. This is not only your right, but it is also in your best interest to
          make sure you understand all the relevant factors involved in replacIng your present coverage,




 opyrght NArC 1990
                                                                                                                   641.
                                      LoI1g- Term   Car Inurance Model
                                                                             atioI1

       3. If, after due consideration , you stll wish to terminate your present policy and replace it with new
              coverage, be certin to trfuJly and completely answer aJl questons on the application concerning
             your medical healt   history. Failure to include aJl material medical information on an application
             may provide a basis      for the company to deny any fure claims and to refund your premium as
             though your policy had never been in force. After the application has been completed and before
             your sign it, reread it carefully to be certain that all information has been
                                                                                       properly recorded.
 The above " Notice to Applicant" was delivered to me on:




                                                                         (Date)


                                                                                           (Applicant' s Signature)
 C. Dit     Response Solicitations. Insuxrs using
      a notice regardig replacement
                                                                    di
                                                         response solicitation methods sha delier
                                       of accident and sickness or long- term car coverage to the
      applicant upon issuance of the policy. The
      maner:                                                     reui
                                                          notice sha be provided in the followig

                          NOTICE TO APPLICANT REGARDING REPLACEMENT
                     OF ACCIDENT AND SICKNESS OR LONG- TERM CARE INSURANCE

According to (your application) (information you have furnished), you intend to lapse or otherwise terminate
existing accident and sickness or long- term care insurance .
insurance. policy delivered herewith issued by (company name)   and replace it with the long- term care
                                                                  Insurance
                                                                            Company. Your new policy
provides thirt (30) days within which you may decide. without cost whether you desire to keep the
For your own information and protecton                                                            policy.
                                         , you should be aware of and seriously consider certain factors
which may affect the insurance protection available to you under the new policy.

      1. Healt conditions which you may presently have (preexisting conditions), may not be immediately
          or fully covered under the new
                                         policy. This could result in denial or delay in payment of benefits
          under the new policy, whereas a similar claim might have been payable under your present
                                                                                                            policy.
      2. You may      wish to secure the advice of your present insurer or its agent regarding the proposed
          replacement of your present policy. This is not only your right, but it is also in your best interest to
          make sure you understand all the relevant factors involved in replacing your present coverage.

      3. (To be included only if the application is attached to the
          wish to terminate your present policy and replace it with     newIf,coverage,
                                                                   policy.J    after due consideration
                                                                                          read         , you still
          application attached to your new policy and be sure that all questions are 	 the copy of the
          correctly. Omissions or misstatements in the application could cause an otherwise answered
                                                                                                 validfully and
                                                                                                        claim
          be denied. Carefully check the application and write to lcompany name and addressl within
               days if any information is not correct and complete. or if any past medical history has beenthirt
          (30) 	                                                                                             left
          out of the application.




                                                                                              (Company Name)




G41
                                            Model Reguation Servce- Januar 199

   Section 12.            Discretionar Powers of            Commssioner
  The Commissioner may upon wrttn reuest and afr            administratie hearg, issue an order
  to modi or suspend a specifc provision or provisions of this reguation ..-ith
                                                        an


  long- nn care insurance policy or certcate upon a                             respect to a specifc
                                                    wrttn fidig that:
            A. The modication or suspension would be in the best interest of the
                                                                                                  insurs; and
            B. The purposes to be achieved could not be effectiely or
                                                                                    effciently achieved without the

                modication or suspension; and
            C. (1) The modication or suspension is necessar to the
                   resonable approach for insurg long-term car; or
                                                                                 development of        an    innovatie and


                (2) The policy or certcate is
                    retiment communty or some other residential communtycar  or contiuig car
                                                    to be issued to residents of a lie
                                                                        for the                             elderly and the
                    modication or suspension is reasonably relate to the specal
                    a comm unity; or
                                                                                                  nee or natur of such
                (3) The modification or suspension is necessar to
                                                                       permit long- term car                insurance    to be
                    sold as par of, or in conjunction with
                                                           , another insurance product.
 Drafting
                                 is intended to provide the Commissioner with
                  ote: This provision
 accommodate specifc and inno\" ative long-term care insurance
 interest. This provision is intended to be used sparigly for
                                                                product                lite discrtion and flexibilty to
                                                                               which ar shown      to be in the public s best
                                                                this purose.
 Section 13.             Reserve Standards
            A. When long-term care benefits         ar
                                                   provided through the acceleration of benefits under
               group or indidual lie policies or riders to such policies, policy reserves for such benefits
               shal be determined in accordance with
                                                      (cite the stadard valuation law for lie insurance
               which contais a section referrg to " special benefits" for which
               by the commissioner). Clai reserves must also be establishedtales      must be approved
                                                                                 in the case when such
               policy or rider is in clai status.

               Reserves for policies and riders subject to
                                                                  this subsection should be based on the multiple
               decrement model
               Single decrement
                               utig         al relevantdecrements except for voluntar termation rates.
                                  approxitions ar acceptale if the calculation produces essentialy
               simar reserves , if the reserve is clealy more conservatie
               The calculations may take into account the reduction in , or if the reserve is immaterial.
                                                                     lie insurance benefits due to the
               payment of long- term car benefits. However
               term car
                                                          , in no event shal the reserves for the long-
                          benefit   and   the lie insurance
               insurance benefit assumg no long-term
                                                                   benefit be less than the reserves for           the lie
                                                     car benefit.
               In the development and calculation
                                      
           of reserves for
                                                                      policies and riders subject to this
               subsection , due regard shall be given to the applicable     policy provisions, marketig
               methods , administratie procedurs and al other
               projected clai costS. includig, but not          considerations which have an impact on
                                                       lited to , the followig:
               (1) Definition of insured events;



               (2) Covered long-term care facilties;

               (3) Existence of home convalescence
                                                         car coverage;

              (4) Defiition of facilties;

CoPyrght N.\lC 1390

                                                                                                                        tr­
                                                      Long.Term Car Insurance Model Reguation

           (5) Existence or absence of barers to eligibilty;

          (6) Premium waier provision:

          (7 Renewability;

          (8) Ability to raise premiums;

          (9) Marketig method;

          no)U nderwtig procedurs;

          (11)   Clais adjustment procedurs;
          (12) Waitig period;

          (13)   Maxum benefit;
          ( 14) Avaiabilty             of eligible          facilties;


          (15) Margis             in   claim        costs;

          (16) Optional nature of benefit;

          (17) Delay         in   eligibilty for benefit;


          (18) Inflation protection proviions; and

          (19) Guaranteed               insurabilty option.
          Any applicable valuation morbidity tale shal be certed as appropriate as a statutory
          val uation tale by a member of the American Academy of
                                                                 Actuares.
      B. When long- term car
                                                                        Subsection A above, reserves
                                                    benefits are provided other than as
                                                                     in
          shal be determed        accordance with (cite law referrg to
                                               in
                                                                                   heath insurance                mium
                                        reui
          reserves , the NArC version of which         reserves " using a tale estalihed for reserve
          puroses by a qualed actuar and acceptale to the commissioner
Section 14.             Loss Ratio
Benefits under inclduallong- term car                                insurance            policies shal
to premiums provided the expecte loss                                                                     be   deemed reasonable   in   relation
                                                 leat sixty percent, calculated in a maner
which provides for adequate reservg of the long-term
                                                                       ratio is at

expecte loss ratio                                   car insurance rik. In evaluatig the
                             , due consideration shal be gien to al relevant factors, includig:
      A. Statistical credibility of incurd                          clais experience and earned premiums;

      B. The period for which rates ar computed to
                                                                                     provide coverage;
      C. Experienced              and projected trnds;

      D. Concentration of experience with early policy duration;
      E. Expected        clai fluctuation;
4J­
                                           Model Reguation Servce-:   Januar
           F. Experience refuds ,      adjustment. or didends;

           G. Renewabilty     featurs;
           H. .-'1 appropriate expense factors;

              Interest;

           J. Experiental natur of the coverage;

           K. Policy   reserves;



           L Mi of business by risk classifcation; and

           M. P oduct featurs such as long eliation periods ,              high deductbles and high maum
              lits.
Drafting Note: The enumeration of         the   t.n   items includes factrs traditionaly not   alowed in calculatig rate.
Because of the desir to foster development of the long-term ca prouct the drafrs ' intention is that
of these factors wi provide sufcient latitude to achieve the sixty                                       th consideration
                                                                   percnt 1088 ratio.


Section 15.                Filng Requiement
Pror to an insurer or similar organation               offerig
                                                grO\.P long- term car insurance to a resident of
th state pursuant to S€(tion 5 of the Long-Term Car  Insurance Model Act , it shal fie with the
Commssioner evidence that the group policy or

                                 state.
                                                                 certcate thereunder has b n approved by a
state havig statutory or regulatory long- term car                insurance reuiments substatialy simar
to those adopte in          th
Section 16.               Standard Format Outlie of Coverage
Ths section of the reguation implements, interprets and makes specc
                                                                      , the proviions of (Secon
6G of the Long-Term Car Insurance Model Act) (cite provision
to prescrbe the formt and content of an outle of coverage) in
                                                              oflaw
                                                              prescrbing  a
                                                                                       reuig
                                                                               the Commsioner
                                                                            stadard formt and
the content of an outle of coverage.

              The outlie of coverage shal be a        frstadig document, using no smaer than ten point
              tye.
       B. The outlie of coverage         shal conta no      material of an advertsing natur.
       C. Text which    is capitaed or underscore in the standard f':!1t outlie of coverage may be
              emphasized by other meas which provide prominence
              underscorig.                                      equialent to such capitaation or

       D. Use     of the text and sequence of text of the stadard formt
              unless otherwise specifcaly indicate.                     outle of coverage is madatory

       E. Formt for outle           of coverage:




 opyrght      NAlC 1990
                                                                                                                  641.
                                                       Long-   Te Car Inurance Model Reguation
                                                                    rCOMPANY NAME)

                                                               (ADDRESS - CIT & STATE)

                                                                (TELEPHONE NUMBER)

                                                         LONG- TERM CARE INSURANCE


                                                               OUTLINE OF COVERAGE


                                   (Policy Number or Group Master Policy and Certificate Number)

 (Except for policies or certificates which are guarantee issue, the following caution statement, .or language
 substantially similar. must appear as follows in the outine of coverage.

 Cauton: The issuance of this long- term care insurance (policy) (certficate) is based upon your responses
 to the questons on your application. A copy of your (application) (enrollment formj (is enclosed) (was
 retained by you when you applied). If your answers are incorrct or untre, the
                                                                                     company has the right to
 deny benefits or rescind your policy. The best time to clear up any questions is now
                                                                                        , before a claim arises!
  , for any reason , any of your answers are incorrect. contact the company at this address: (insert address)

 1. This       policy is 
    an individual policy of insuranceJ(a group
       jurisdiction in which group policy was issued)).
                                                                                                    policyj which was issued in the (indicate

2. PURPOSE OF OUTLINE OF COVERAGE. This outline of coverage provides a very brief description of
   the important features of the policy. You should compare this outline of coverage to outlines of eoverage
   for other policies available to you. This is not an insurance contract, but only a summary of coverage.
       Only the indivdual or group policy contains governing
                                                                contractual provisions. This means that the
       policy or group policy sets fort in detail the rights and obligations of both you and the insurance
       company. Therefore, if you purchase this coverage, or any other coverage
       READ YOUR POLICY (OR CERTlFICATE) CAREFULLY!
                                                                                                                              , it is important that you

3. TERMS UNDER WHICH THE POLICY OR CERTIFICATE MAY BE
       REFUNDED.
                                                      RETRNED AND                                                                                   PREMIUM

       (al (Provide a brief         descripton of the right to return                   tree    look" provision of the policy.
       (bl (Include a        statement that the policy either does or does not
             refund or partial refund 

                                                                                                             contain provisions providing for a
                                                  at    premium upon the death
                                                                                               at   an insured or surrender                       the policy or
             certficate. If the policy contains such provisions, inciude a description of them.                                              at




4. THIS IS NOT MEDICARE SUPPLEMENT
                                            COVERAGE. If you are eligible for Medicare, review the
   Medicare Supplement Buyer's Guide available from the insurance company.

       (a)   For agentsj Neither
                                               insert company namej nor its agents represent                                    Medicare, the          federal
             government or any state government

       (b) (For direct       responseJ (insert company namej is not representing Medicare, the 


             or any state government                                                                                               federal        government

5. LONG- TERM CARE COVERAGE. Policies of this category are designed to provide coverage for one
   or mare        necess
                      or medically                     necess
                                             diagnOSc, prvent, therapeutc, rehabilitatie, maintenance.
   or persona! care servces. provided in a setting
   nursing home, in the community or in the home. other than an acute care unit of a hospital , such as in a


641­
                                        Model Reguation Servce   Januar 199


     This policy provides coverage in the form of a fixed dollar indemnity benefit for covered long- term care
     expenses. subject to policy (limitations) (waiting periods) and (coinsurancej requirements. (Modify this
     paragraph if the policy is not an indemnity policy.

 6. BENEFITS PROVIDED BY THIS POLICY.

     (a) (Covered servces.      related deductible(s), waiting periods. elimination periods and benefit maximums.

     (b) (Institutional benefits. by skilievel.j
     (c) (Non- institutonal   benefits, by skilleve!.)

    (Any benefit screens must be explained in this section. If these screens differ for di
                                                                                             erent benefits,
    explanation of the screen should accompany each benefit description. If an attending physician or
    other specified person must certfy a certain level of functonal dependency in order to be eligible for
    benefits. this too must be specified. If actties of daily livng (ADLs) are used to measure an insured'
    need for long- term care, then these qualifying criteria or screns must be explained.

7. LIMITATIONS AND EXCLUSIONS.
    (Describe:

    (a) Preexisting conditions;



    (b) Non-eligible    facilities/provider;

    (c) Nan-eligible levels of care (e. g., unlicensed providers, car or treatment provided by a family
         member, etc.

    (d) Exclusions/exceptions;


    (e) Umitations.



    (Tis section should provide a       brief specific description of any policy provisions which limit. exclude,
    restct reduce , delay, or in any    other manner operate to qualify payment of the benefits described in (6)
    above.

    THIS POLICY MAY NOT COVER ALL THE
                                      EXPENSES ASSOCIATED WIT YOUR LONG- TERM
    CARE NEEDS.

8. RELATIONSHIP OF COST OF CARE AND BENEFITS. Because the casts of long-
    will likely increase over time, you should consider whether and how the benefits ofterm
                                                                                         thiscare
                                                                                              planservices
                                                                                                   may be
    adjusted. (As applicable, indicate the following:



    (a) That the benefit    leve! will not increase over time;

    (b) Any automatic benefit adjustment provisions;

    (c) Whether the  insured will be guaranteed the option to buy additional benefits and the basis upon
        which benefits will be increased over time if not by a specified amount or percentage:

    (d) If there is such a guarantee, include whether
                                                    additional underwriting or health screening will be
        required. the frequency and amounts of the upgrade
        limitations:                                        options, and any significant restrictions or

    (el And   finally, describe whether there will be any additional premium charge imposed. and how that is
        to be calculated.

Copyrght NAlC 1990

                                                                                                          641.
                                              Long-Term Car Insurce Model Reguation

  9. TERMS UNDER WHICH THE POLICY (OR CERTIFICATE) MAY BE CONTINUED IN FORCE
        DISCONTINUED.

        ((a) Describe the policy renewability provisions:

        (b) For group coverage,     specifically describe continuation!conversion provisions applicable to the
             certificate and group pOlicy:

       (c) Describe waiver of      premium provisions or state that there are not such provisions;

       (d) State whether or not the company has a right to change premium , and if such a
                                                                                                     right exists.
             describe clearly and concisely each circumstance under which premium may change.

 , O. ALZHEIMER' S DISEASE AND OTHER ORGANIC BRAIN DISOROERS.

       (State that the policy provides coverage for insureds clinically diagnosed as having Alzheimer's
       disease or related degenerative and dementing ilnesses. Specifically describe each benefit  screen or
       other policy provision which provides preconditions to the availabilty of policy benefits for such an
       insured.

    . PREMIUM.

       ((a) State the total annual premium for the policy;

       (b) If the premium varies with an applicant's choice among benefit options. indicate the portion of
             annual premium which corresponds to, each benefit option.

, 2. ADOmONAL FEATURES.

       ((a) Indicate if medical underwriting is used:

       (b) Describe other important features.



Legilatve History (al references are to the      Proceedines of the NA/C/
1988 P1'c.   19.20. 21. 629. 630. 652. 656- 661 (adopted).
1989 P1'c. 19.  24-25, 703, 754- 755. 791. 794 (amended).
1989 ?roc-   1113. 23. 24. 468. 476-477 484-493   (amended and reprinted).
1990 ?roc.     (amended an reprinted).




641.
